<html>
<title> - SEAPORT SECURITY, LAW ENFORCEMENT COORDINATION, AND VESSEL PILOTING</title>
<body><pre>[Senate Hearing 107-1044]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1044

  SEAPORT SECURITY, LAW ENFORCEMENT COORDINATION, AND VESSEL PILOTING

=======================================================================

                             FIELD HEARING

                               before the

       SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 10, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




90-227              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGIA ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel
                                 ------                                

       Subcommittee on Surface Transportation and Merchant Marine

                  JOHN B. BREAUX, Louisiana, Chairman
DANIEL K. INOUYE, Hawaii             GORDON SMITH, Oregon
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
RON WYDEN, Oregon                    OLYMPIA J. SNOWE, Maine
MAX CLELAND, Georgia                 SAM BROWNBACK, Kansas
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JEAN CARNAHAN, Missouri              JOHN ENSIGN, Nevada
JOHN EDWARDS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held January 10, 2002....................................     1
Statement of Senator Breaux......................................     1

                               Witnesses

Back, Chief Johnny R., Chief Patrol Agent, New Orleans Sector, 
  U.S. Border Patrol.............................................    13
    Prepared statement...........................................    16
Casto, Admiral Roy, Commander, Eighth District, U.S. Coast Guard, 
  Accompanied by Captain Stephen Rochon, Captain of the Port of 
  New Orleans....................................................     6
    Prepared statement...........................................     7
Grubbs, Captain Douglas J., Crescent River Pilots Association....    36
    Prepared statement...........................................    38
Hayden, Channing, President, Steamship Association of Louisiana..    40
    Prepared statement...........................................    42
Hecker, Robert S., Chief of Police, Harbor Police Department, 
  Port of New Orleans............................................    30
    Prepared statement...........................................    32
Hyatt, John T., Chairman, Port Liaison/Political Action Committee    54
Kaiser, Kenneth, Special Agent in Charge, New Orleans Field 
  Office, F.B.I..................................................    34
    Prepared statement...........................................    35
LaGrange, Gary, Director, Port of New Orleans....................    24
    Prepared statement...........................................    28
Moran, Leticia, Field Operations Director, Gulf Customs 
  Management Center, U.S. Customs Service........................     8
    Prepared statement...........................................    11
Vitter, Hon. David, U.S. Congressman from Louisiana..............     5

 
  SEAPORT SECURITY, LAW ENFORCEMENT COORDINATION, AND VESSEL PILOTING

                              ----------                              


                       THURSDAY, JANUARY 10, 2002

                                       U.S. Senate,
Subcommittee on Surface Transportation and Merchant Marine,
        Committee on Commerce, Science, and Transportation,
                                                   New Orleans, LA.
    The Committee met, pursuant to notice, at 1:35 p.m., in the 
Port of New Orleans Auditorium, Hon. John B. Breaux, Chairman 
of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. The U.S. Senate Subcommittee on Surface 
Transportation and Merchant Marine will please come to order.
    Good afternoon everyone. I am delighted to be back at home. 
We are appreciative of all the courtesies that we have been 
extended by officials here in New Orleans with the Port of New 
Orleans. We thank them very much.
    We had an opportunity this morning to do some actual hands-
on inspection of both the port and some of our facilities and 
also had a most enjoyable opportunity to board one of the ships 
coming into the Port of New Orleans with the Coast Guard and 
with the river pilots and some of the sea marshals working with 
the United States Coast Guard as well. Maybe I should not say 
this, but they actually let me take control of the ship, which 
is probably a real hazard, but we did it under the careful 
watch of the Coast Guard and river pilots who were onboard. It 
is quite a thrill to have the personal experience of coming up 
the river in this very busy port.
    I am delighted that I am joined by my good friend and 
colleague Congressman David Vitter, from this area, of course, 
and also who serves this area very ably in the House of 
Representatives, and he will have some comments to make on his 
own. I am delighted he was able to participate with us and ask 
questions if he would like.
    This is the middle part of a 3-day trip in which I as 
chairman of the Subcommittee on Surface Transportation and 
Merchant Marine have taken the opportunity to visit some of the 
biggest and most outstanding ports in America to see how we are 
doing, particularly after 9/11.
    It is very clear that America is a different country since 
September 11 when we had our terrorist attack. Security in all 
parts of our lives needs to be looked at and considered. We in 
the past have paid a great deal of attention to airports and 
airline security, but it is certainly equally as important that 
we pay attention to the security that we have at the ports of 
our country, not only from the standpoint of criminal activity, 
but also, obviously since 9/11, from the aspect of ports being 
a potential target for terrorists. There is no port in America, 
including this one, that would not be on a list of potential 
terrorist heartaches if they wanted to do damage to the 
economic structure of this country.
    We had a hearing yesterday in Fort Everglades around Fort 
Lauderdale in Florida and looked at their operations and what 
they were doing. Their port is vastly different from the Port 
of New Orleans in terms of the type of traffic that they have 
and in terms of access to their ports. It is right on the 
Atlantic, and it is a very short distance that they have to 
protect, so it was interesting to see Fort Everglades in 
comparison to our own port here in Louisiana, the Port of New 
Orleans.
    Tomorrow I will be in Houston looking at the Port of 
Houston to see what they are doing and to see how we as a 
Federal Government can be helpful in allowing them to become 
more secure than they are today. We will probably have 
additional field hearings on the West Coast looking at the 
Ports of Long Beach and Los Angeles and Seattle and Portland 
and also on the East Coast in New York and Boston and possibly 
Savannah.
    This is an important endeavor because, as I said yesterday 
in Florida, the intent of this Committee and Congress is not to 
come down from Washington and tell port officials what they 
ought to be doing. We're not trying to instruct them as much as 
we are trying to work with them to try and create better 
cooperation between the federal agencies that are involved in 
port security and port regulation, including Immigration and 
Naturalization Service, including Customs, including the Border 
Patrol officers, the Coast Guard, and everybody else involved.
    One of the things that I want to make very certain that we 
ultimately end up with is some kind of a coordinated effort 
dealing with port security. If everybody is in charge, then 
generally no one is in charge. When you have Immigration and 
Naturalization Service, when you have the FBI, when you have 
Customs, when you have the Coast Guard, when you have the state 
officials, and when you have the Sheriff's Department all being 
concerned about port security at all of our ports around this 
nation, then again sometimes there is a lot of overlap 
confusion and there is not a clear line of responsibility. We 
hopefully want to make sure that is being done properly.
    I would just mention for the benefit of all of our guests 
here in the audience that the U.S. Senate has adopted a bill 
that I co-authored along with Senator Fritz Hollings and 
Senator John McCain and Senator Bob Graham of Florida called 
``The Port and Maritime Security Act.'' The legislation passed 
the Senate Commerce Committee, which I serve on, unanimously; 
and then passed the U.S. Senate unanimously. It is still 
pending in the House. I am certain that the House will be 
taking it up in the relatively near future, and in the not-too-
distant future we'll have a piece of legislation that the 
President will be able to sign.
    Let me just briefly outline what that legislation does. 
Number one, it sets up local port security committees to better 
coordinate the efforts, like I was talking about, state and 
federal and local and private law enforcement officials.
    It also mandates for the very first time that all ports 
have a comprehensive security plan in place. It is very 
important that there is a plan so that people know what to do, 
when to do it, and how to do it before the inevitable happens 
and they have to struggle to figure out how to put together a 
plan. We want it in place early.
    It requires ports to limit access to security-sensitive 
areas, restrict firearms and other weapons, develop an 
evacuation plan, and conduct background checks on employees 
working in security-sensitive areas.
    No longer will people be able to have free and unfettered 
access to sensitive areas. Ports are clearly sensitive areas. 
You no longer are going to be able, in my opinion, to just 
allow anyone to drive into a port in a vehicle or car or truck 
without having a specific purpose for being there and to be 
identified as to what their purpose is in that particular area.
    The bill would require ships to electronically send their 
cargo manifest to a port before gaining clearance to enter and 
prohibits unloading of improperly documented cargo.
    It is very important that we in the Port of New Orleans 
know what ships are coming into the Mississippi River, to know 
who is onboard those ships, to know who the crew is onboard 
those ships, and to know also what cargo is onboard those 
ships.
    Some cargo is much more sensitive than others in the sense 
of being hazardous material verses soy beans as an example. We 
need to know what cargo is on those ships before they enter 
into the Mississippi River Transportation System. It also 
creates an improved reporting of crew members and passengers 
and imported cargo to better track suspicious activity.
    It is interesting in Fort Everglades yesterday, which was 
obviously a very large cruise passenger terminal that fights 
with Miami to be the largest passenger terminal in the country. 
We also have passenger ships calling on this port, and 
hopefully many more in the future will also look at the Port of 
New Orleans as its home--who is onboard those ships and making 
sure that they leave the port with the same group of people 
that came to the port on that ship. It is not an easy thing to 
do.
    We saw a wonderful example in Port Everglades yesterday 
where every person that enters a passenger ship is 
photographed, given an ID card, automatically thrown into a 
computer, and then they call another port. They know who is off 
the ship, and they know when every single passenger is back on. 
It is a good system.
    They also inspect 100 percent of the luggage that is being 
put on a cargo passenger ship. I don't know whether we have a 
system like that yet here. Maybe we can hear about that today. 
Every single piece of luggage is x-rayed. That is more than is 
being done currently on airlines, which we hope to get to 100 
percent, x-raying of the checked luggage, which is now being 
done on many cargo vessels.
    The bill also creates a sea marshall program to more 
specifically authorize the Coast Guard to board ships entering 
our ports to make sure that everything on that ship is in 
order. We had sea marshals with us this morning when we boarded 
the ship that was a Chinese registered ship, so the program is 
already here in New Orleans. We have some sea marshals that, in 
addition to boarding the ship with a river pilot, we also have 
sea marshals and the Coast Guard who are on those ships looking 
around the ship to make sure that nothing suspicious is going 
on that ship.
    It also directly grants in the Senate bill--it authorizes 
$703 million to local ports to upgrade security infrastructure 
and to the U.S. Customs Service for new inspectors, agents, and 
screening and detection equipment. That's an authorization--
Congressman Vitter and Senator Landreau serve Louisiana on the 
Appropriations Committee and will play major roles in making 
sure that what we authorize is ultimately, actually 
appropriated. That's important. Those are direct grants to 
local ports. The Port of New Orleans obviously can benefit 
greatly from that type of assistance.
    It also, in the Senate bill, guarantees up to $3.3 billion 
in loans for ports to upgrade security infrastructure, which 
would obviously make it much easier for a port to go into the 
private market to finance infrastructure upgrading.
    It also authorizes additional spending for research and 
development of cargo inspection technology. It is obvious that 
in the 21st century we can no longer depend on 1960's 
technology to properly inspect the cargo. We only inspect about 
2 percent of the cargo that enters into this country in ships. 
That means 98 percent is currently not inspected.
    Because of the good work of Customs and the INS and the 
Coast Guard and local officials, we have been able to do an 
incredibly good job of targeting ships that are suspicious and 
actually stopping those from bringing in things that should not 
be coming in. Just yesterday, and I hope they didn't do it 
because of me, but they busted a large shipment of cocaine, the 
Coast Guard working with Customs in Florida. That just happened 
to take place the same day we were there. These are very 
complicated procedures. I mean this stuff was welded into the 
anchor room of the stern of the ship. The only way they found 
it was to get in with cutting torches and cut open the bottom 
of that ship's well to find out that they had millions and 
millions of dollars of cocaine that had been welded into the 
ship's structure. It is hard to find that just with a physical 
inspection. You have to have information that is obtained in 
different fashions and know that was being brought in. They're 
doing a terrific job.
    Let me finally mention that as we consider the overall 
question of seaport security, we must also remember the bravery 
and courage of all of our individuals, federal, state, and 
local individuals who place their lives on the line to protect 
our ports and make them more secure every day.
    Just in October, as all of you are probably aware, Senior 
Customs Inspector Tom Murphy lost his life and paid the 
ultimate sacrifice while inspecting a vessel full of scrap 
metal here in Louisiana at the Port of Gramercy. Lack of oxygen 
in the hole, unbeknownst to the inspectors when they got there, 
resulted in a very tragic accident by a person who is now 
survived by his wife and five children. He served the U.S. 
Customs Service for 26 years and did his job every day and paid 
an ultimate sacrifice trying to just make sure that our ports 
are more secure.
    Those are the types of people that we have in this business 
who are trying to increase port security. They are good people. 
I think that we on the federal level need to make sure that 
we're doing everything that we can in coordinating these 
efforts. These hearings that we are having in Florida, New 
Orleans and Houston and around the country hopefully will give 
us better and greater information to do a better job with this 
coming legislation.
    With that, I want to recognize my good friend who has 
joined us from, as we say in the Congress--we don't refer to 
each other as senators or Congressman officially. In the Senate 
if you call someone a Member of the House, you can have your 
words taken down and stricken. We call them ``folks from the 
other body.'' Like an out-of-body experience (laughter). Having 
served in the House for 14 years, I think it is a pretty good 
place to be and I am delighted that David Vitter has joined us.

                STATEMENT OF HON. DAVID VITTER, 
                U.S. CONGRESSMAN FROM LOUISIANA

    Mr. Vitter. Thank you very much, Senator. I would only say, 
first, thank you for your courtesies in allowing me to sit with 
the Committee in hearing and absorbing the testimony, which I 
very much look forward to.
    Second, I wanted to acknowledge and salute your leadership 
on this issue. The Senate has been active on this issue even 
before September 11. You have been very involved, and I want to 
commend you for all of that work.
    Third, I want to say that although the House has been 
lagging on the issue compared to the Senate--I think that is 
going to change, and I am very hopeful that is going to change.
    I am introducing a comprehensive bill that is similar to 
yours. I've spoken to the Coast Guard Subcommittee chairman, 
and he is focusing on the issue, and I think we are going to 
have markups in March and April and move toward a final bill on 
the President's desk hopefully by mid-2002, if not sooner. I'd 
like to see it sooner. I'm very hopeful about that, and thank 
you again for your courtesy.
    Senator Breaux. Thank you very much, David, for being with 
us.
    I'd like to welcome our first panel. We have Rear Admiral 
Casto, who is obviously our commandant of the Eighth District 
of the United States Coast Guard. He is accompanied by Captain 
Stephen Rochon, who is the Captain of the Port, who is soon to 
be Admiral somewhere.
    I wish you could stay with us.
    He has been a good friend and is now the Captain of the 
Port of New Orleans.
    Leticia Moran is a Field Operations Director for the Gulf 
Customs Management Center of the U.S. Customs Service here in 
New Orleans, which does a terrific job of running the Customs 
program here. I would add that he has been of great help to me 
on these incredibly important Louisiana interests in getting a 
large shipment of Mardi Gras beads through Customs (laughter). 
Take advantage of something that is very important to 
Louisiana. Without her help, we wouldn't have been able to work 
out that little detail.
    Chief Johnny Back, who is the Chief Patrol Agent of the New 
Orleans Sector of the United States Board Patrol.
    We are delighted to have all three of you.
    Admiral Casto, do you want to start it off?

  STATEMENT OF ADMIRAL ROY CASTO, COMMANDER, EIGHTH DISTRICT, 
   U.S. COAST GUARD, ACCOMPANIED BY CAPTAIN STEPHEN ROCHON, 
                    CAPTAIN OF THE PORT OF 
                          NEW ORLEANS

    Admiral Casto. Yes, sir. I guess I get to go first.
    Good afternoon, Mr. Chairman and Congressman Vitter. Let me 
start by thanking you for your leadership in this very 
important area.
    As Commander of the Coast Guard's Eighth District, I am 
responsible for the prosecution of all Coast Guard missions 
along the Gulf Coast--well, along the Gulf Coast from the West 
Coast of Florida over to the Mexican Border--and across the 
entire inland rivers system that stretches basically from the 
Rocky Mountains in the West to the Appalachians in the East. I 
appreciate the opportunity to highlight some of our efforts in 
the important area of maritime homeland security in the wake of 
the tragic attacks on September 11.
    While port security and homeland security have long been 
Coast Guard missions, at no time in my 35 years of service have 
I seen it elevated to the priority amongst other important 
Coast Guard missions that we have today, and rightfully so.
    In the post-September 11 environment, protecting Americans 
from terrorist threats requires constant vigilance across every 
mode of transportation: air, land, and sea. This is especially 
true of the maritime mode. Ensuring effective port and maritime 
security is a national priority and a multi-agency 
responsibility involving all the agencies and organizations 
represented at these field hearings and many more.
    The business of our seaports impact broadly across 
America's heartland as well as along our coasts. The United 
States has more than 95,000 miles of coastline, 25,000 miles of 
inland, intercoastal, and coastal water ways, and 361 ports 
containing more than 3,700 passenger and cargo terminals. This 
commercial maritime transportation infrastructure fuels our 
economy and under the Department of Transportation and Coast 
Guard leadership has long been identified as a national 
priority.
    I am very proud of the job our Coast Guard men and woman 
have been doing to deter potential future terrorist attacks in 
the maritime arena. I'm also encouraged by the very close 
working relationships that have developed among all of our 
partners in this endeavor. These include state and local law 
enforcement agencies, our sister armed services, other federal 
agencies, the Marine Pilot Association, and various elements of 
the industry.
    These relationships are stronger than at any time that I 
can recall, and together we are making a difference. But let 
there be no doubt, securing our borders, our critical 
infrastructure, and our waterways, and also providing for the 
safety of our citizens in the maritime environment is an 
enormous challenge for all of us.
    In this Coast Guard district alone, we have over 1,200 
miles of coastline and over 10,000 miles of inland navigable 
rivers. We have 11 of the nation's top 20 ports in terms of 
tonnage handled, including large petrochemical complexes in New 
Orleans, Baton Rouge, Houston, Texas City, and Freeport to name 
a few.
    The Gulf area also provides 28 percent of all of the 
nation's domestically produced petroleum and natural gas and 46 
percent of the nation's imported petroleum. We have identified 
nearly 400 pieces of critical infrastructure in this district, 
nearly 20 percent of which lies between New Orleans and Baton 
Rouge and Galveston and Houston. These facilities include the 
petrochemical plants, critical rail and highway bridges, 
nuclear generating plants, and cruise ship terminals.
    A typical day in this district may see the arrival of over 
150 major commercial vessels, half a dozen or more would be 
what we call ``high-interest vessels.'' That would be, for 
example, large cruise ships, U.S. Navy vessels, and liquid 
hazardous gas carriers. We also have two strategic psilophyte 
ports in this district from which critical supplies flow to our 
forces fighting overseas.
    We are using all of the resources and tools at our disposal 
to provide the maximum possible Coast Guard presence and 
deterrence on and around our waterways and working closely with 
all of our partners to maximize all of our combined efforts.
    We are also preparing to provide protection and response to 
specific threats identified by the intelligence community. Our 
tools include such things as vessel escorts and limited use of 
sea marshals, as well as random security patrols in many of our 
ports and around the critical offshore infrastructures, 
including Louisiana offshore oil ports and oil and gas 
production platforms that stretch far into the Gulf in the 
petroleum lighting zones in the Gulf.
    We are also working closely with the Coast Guard's 
Intelligence Coordination Center and our partners maximizing 
our awareness of what is going on in our waterways. I think you 
saw some of our new technology demonstrated at the Vessel 
Traffic Center this morning. This technology will significantly 
improve our ability to monitor the lower Mississippi River from 
the mouth up to Baton Rouge.
    I hope this statement provides a snapshot of the homeland 
security challenges in this district and how we are engaged in 
meeting these challenges. I'll be happy to answer any questions 
that you may have.
    [The prepared statement of Admiral Casto follows:]

 Prepared Statement of Admiral Roy Casto, Commander, Eighth District, 
U.S. Coast Guard, Accompanied by Captain Stephen Rochon, Captain of the 
                          Port of New Orleans

    Good afternoon Mr. Chairman. As Commander of Coast Guard's Eighth 
District, I am responsible for the prosecution of all Coast Guard 
missions along the Gulf Coast from Mexico to the West Coast of Florida, 
and across the entire inland rivers system stretching basically from 
the Rocky Mountains in the west to the Appalachians in the east.
    Protecting America from terrorist threats requires constant 
vigilence across every mode of transportation: air, land, and sea. The 
agencies within the Department of Transportation, including the U.S. 
Coast Guard Federal Aviation Administration, Federal Highway 
Administration, and the Maritime Administration (MARAD), touch all 
three modes of transportation and are cooperatively linked. This is 
especially true of the maritime mode. Ensuring robust port and maritime 
security is a national priority and an intermodal challenge, with 
impacts in America's heartland communities just as directly as the U.S. 
seaport cities where cargo and passenger vessels arrive and depart 
daily. The United States has more than 1,000 harbor channels, 25,000 
miles of inland, intracoastal and coastal waterways, serving 361 ports 
containing more than 3,700 passenger and cargo terminals. This maritime 
commerce infrastructure, known as the U.S. Marine Transportation 
System, or MTS, has long been a Department of Transportation priority. 
The U.S. MTS handles more than 2 billion tons of freight, 3 billion 
tons of oil, transports more than 134 million passengers by ferry, and 
entertains more than 7 million cruise ship passengers each year. The 
vast majority of the cargo handled by this system is immediately loaded 
onto or has just been unloaded from railcars and truckbeds, making the 
borders of the U.S. seaport network especially abstract and vulnerable, 
with strong, numerous and varied linkages direct to our Nation's rail 
and highway systems.
    I appreciate the opportunity to highlight some of our efforts in 
the important area of Maritime Homeland Security, in the wake of the 
tragic attacks on September 11. While Port Security/Homeland Security 
have long been Coast Guard missions, at no other time in my 35 years of 
service have I seen them elevated to the priority (amongst other 
important Coast Guard missions) that we have today. And rightly so.
    I am very proud of the job our Coast Guard men and women have been 
doing to deter potential future terrorist attacks in the maritime 
arena. I am also encouraged by our close working relationships that 
have developed among all our partners in this endeavor. These include 
state and local law enforcement agencies, our sister armed services, 
other federal agencies, marine pilot associations and various elements 
of industry. These relationships are stronger than at any other time I 
can recall, and together we are making a difference. But, let there be 
no doubt, securing our borders, our critical infrastructure and our 
waterways and also providing for the safety of our citizens in the 
maritime environment is an enormous challenge for all of us.
    In this Coast Guard district alone, we have over 1,200 miles of 
coastline, and over 10,300 miles of inland navigable rivers. We have 11 
of the nation's top 20 ports in terms of tonnage handled, including 
large petrochemical complexes in New Orleans, Baton Rouge, Houston, 
Texas City, and Freeport. This Gulf area also provides 28 percent of 
all the nation's domestically produced petroleum and natural gas and 46 
percent of the nation's imported petroleum. We have identified nearly 
400 pieces of critical infrastructure, nearly 20 percent of which lies 
between the New Orleans to Baton Rouge and Galveston to Houston 
corridors. These facilities include petrochemical plants, critical rail 
and highway bridges, nuclear generating plants and cruise ship 
terminals. A typical day may see the arrival of over 150 major 
commercial vessels, 6-8 being what we would call high interest vessels 
(large cruise ships, U.S. Navy vessels and liquid hazardous gas 
carriers). We also have two strategic sealift ports from which critical 
supplies flow to our forces overseas.
    We are using all the resources and tools at our disposal to provide 
the maximum possible Coast Guard presence and deterrence on and around 
our waterways and working closely with our partners to maximize our 
combined efforts. We are also preparing to provide protection and 
response to specific threats identified by the intelligence community. 
Our tools include vessel escorts and limited use of ``Sea Marshals,'' 
as well as armed random security patrols in many of our ports and 
around critical offshore infrastructure (including the Louisiana 
Offshore Oil Port and petroleum lightering zones). We are also working 
closely with the Coast Guard's Intelligence Coordination Center and our 
partners maximizing our awareness of what is going on in our waterways. 
I think you saw some of our new technology demonstrated at our vessel 
traffic center this morning; this technology will significantly improve 
our ability to monitor the Lower Mississippi River from the mouth to 
Baton Rouge.
    Thank you for the opportunity to testify before you today. I will 
be happy to answer any questions you may have.

    Senator Breaux. Thank you very much, Admiral.
    Ms. Moran.

         STATEMENT OF LETICIA MORAN, FIELD OPERATIONS 
 DIRECTOR, GULF CUSTOMS MANAGEMENT CENTER, U.S. CUSTOMS SERVICE

    Ms. Moran. Chairman Breaux, Congressman Vitter, thank you 
for the invitation to testify and for providing me the chance 
to appear before you today to discuss the efforts of the U.S. 
Customs Services to address the terrorist threat and the 
challenges that exist with vessel and cargo inspection at the 
Port of New Orleans. I'd also like to thank you for recognizing 
the dedication of our officers, especially Inspector Tom 
Murray.
    I am Leticia Moran, the Director of Field Operations for 
the Gulf port area. I am responsible for oversight of the 
inspection and control of international passengers, 
conveyances, and cargo arriving and departing through the 
seaports and airports in the Gulf area.
    As a major participant in the protection of our nation's 
ports, Customs has taken a lead role in efforts to deny entry 
to the implements of terrorism into the United States. The 
Customs Service enforces over 400 laws and regulations for more 
than 40 different agencies. Naturally, the ports of entry in 
the Gulf area are a major focus of these efforts.
    While Customs is able to inspect only a relatively small 
percentage of the massive volume of cargo entering the United 
States each day, we rely on a careful, multi-layered targeting 
approach to select goods for intensive examination. Our risk 
management strategy incorporates the use of intelligence and 
advance information from shippers, the deployment of 
sophisticated technologies, and the skill and expertise of 
Customs personnel to sift out suspicious goods from the vast 
ocean of legitimate trade before they enter the commerce of the 
United States.
    In addition, under the direction of Commissioner Robert 
Bonner, the agency is engaging the private sector in a new 
Customs trade partnership to defend the entire length of the 
product supply chain from penetration by terrorists or the 
implements of terrorism. We were undertaking these new 
initiatives with our international partners in an effort to 
expand the perimeter of inspection away from the port of entry 
and toward the point of origin.
    The Customs Service also continues to build upon 
established cooperative relationships with the Immigration and 
Naturalization Service, Department of Agriculture, Coast Guard, 
and other federal agencies, state and local authorities, and 
port authorities within the Gulf area. Using a collaborative 
approach, these agencies are employing targeting tools and 
technology and risk management techniques to select people, 
vessels, and cargo for increased inspection.
    Trade and travel into the Gulf area continues to increase. 
During fiscal year 2001, over 12,000 vessels and 135,000 
containers entered through the eight seaports in our Gulf area 
from Mobile, Alabama, to Lake Charles, Louisiana. Approximately 
4,281 thousand containers alone arrive in the Port of New 
Orleans. These numbers represent an increase of over 8 percent 
compared to the same period last year.
    Sea passenger counts, which include cruise ship passengers 
and crew members, were over 150,000 in fiscal year 2001. This 
represented a decrease of 6.9 percent from the previous year 
mainly due to financial problems with one of our major cruise 
ship lines. But due to major improvements by the Port at the 
Julia Street Cruise Ship Terminal, we do expect cruise ship 
vessel arrivals to increase through the Port of New Orleans 
within the next 2 years. The Port Authority projections are 
that cruise ship passengers will increase by 300 percent by 
fiscal year 2003.
    In response to the terrorist attacks of September 11, the 
United States Customs Service immediately implemented a Level 
One Alert for all personnel and ports of entry. This is our 
highest state of alert calling for sustained, intensive anti-
terrorist operations. We remain at Level One Alert today.
    Prior to September 11, a major threat in our area was 
narcotics and its proceeds. After September 11, we have 
refocused our resources to passengers, vessels, and cargo 
arriving or departing from or to countries identified as high 
risk for terrorists and the implements of terrorism.
    We do not expect our changing priorities to have a negative 
impact on our traditional law enforcement mission. To the 
contrary, we expect, and we have seen mounting evidence to the 
effect, that heightened counter-terrorist measures by the 
Customs Service are strengthening our overall interdiction 
efforts and are increasing drug seizures.
    Customs in New Orleans immediately increased inspections on 
all modes of transportation. Because of watch lists issued for 
suspected terrorists, Customs increased inspections for air and 
sea passengers both inbound and outbound through the Louis 
Armstrong Airport and the Julia Street Terminal, and we work in 
close coordination with both the INS and FBI to identify 
suspects on the watch list.
    We are also targeting and inspecting high-risk shipments 
that could be used in terrorist attacks against our country. 
Customs uses intelligence, data systems, and physical 
inspection with high-tech equipment to identify which vessels 
and containers to examine.
    Along with our Office of Investigations, an intelligence 
collection and analysis team has been established in New 
Orleans. This interdisciplinary team's main mission is to 
target high-risk vessels entering through our various seaports. 
As a result, we have increased inspections of containers 
utilizing a vehicle inspection system, which is a mobile 
container x-ray system.
    High-risk vessels and shipments have been inspected using a 
multi-agency approach. During these inspections, the different 
entities contribute their expertise and their resources. We are 
conducting these inspections with Customs agents, K-9 teams, 
the Louisiana National Guard, and Customs technology to include 
x-ray equipment and radiation pagers.
    The Coast Guard, FBI, Louisiana State Police, the Louisiana 
Department of Environmental Quality, the Port Harbor Police, 
and the Jefferson Parish Sheriff's bomb dogs have assisted us 
in targeting and inspections. These inspections have resulted 
in a closer working relationship among these different 
agencies.
    Our ports within the five-state area have also responded to 
the threat on the northern border by sending personnel to 
assist with inspections at Detroit and Port Huron. The Port of 
New Orleans Contraband Enforcement Team also supports the 
inspections of high-risk vessels at the seaports of Morgan 
City, Baton Rouge, Gramercy, Lake Charles, Gulfport and 
Pascagoula. Customs personnel will also be lending support at 
the Super Bowl to be held later this month here in New Orleans.
    From an overall perspective, the volume of trade and 
traffic in our ports of entry have put immense pressure on our 
ability to enforce the nation's laws while facilitating 
international trade even before September 11. After September 
11, our challenge has risen to a new level. Although we have 
taken many steps to address these challenges, we still face 
many more.
    It is over 80 miles from the mouth of the Mississippi to 
the city of New Orleans. On both sides of the river are 
numerous private and public docks, anchorage locations, grain 
elevators, and oil refineries. Providing security within this 
area and up river takes a coordinated effort between the 
different federal agencies, port authorities, and state and 
local enforcement entities. Our industry partnerships with the 
local trade community also play a large role in our enforcement 
efforts.
    We are working with Treasury and the Administration to 
address the personnel and technology challenges. This 
technology has to be able to detect the implements of terrorism 
and has to be mobile to be able to address threats within our 
geographical area. The technology also has to be the least 
intrusive to be able to safeguard our employees and to protect 
the integrity of legitimate shipments.
    I want to thank you, Mr. Chairman, for the opportunity to 
testify. The U.S. Customs Service will continue to make every 
effort possible, working with our fellow inspection agencies, 
within the Administration, with Congressional leaders, and the 
business community to address your concerns and those of the 
American public. I would be happy to answer any questions you 
might have.
    [The prepared statement of Ms. Moran follows:]

 Prepared Statement of Leticia Moran, Field Operations Director, Gulf 
            Customs Management Center, U.S. Customs Service

    Chairman Breaux, thank you for your invitation to testify and for 
providing me the chance to appear before you today to discuss the 
efforts of the U.S. Customs Service to address the terrorism threat and 
the challenges that exists with vessel and cargo inspection at the Port 
of New Orleans, Louisiana.
    My name is Leticia Moran. I am the Director, Field Operations for 
the Gulf port area. I am responsible for oversight of the inspection 
and control of international passengers, conveyances and cargo arriving 
and departing through the seaports and airports in the Gulf port area.
    As a major participant in the protection of our nation's ports, 
Customs has taken a lead role in efforts to deny entry to the 
implements of terrorism into the United States. The Customs Service 
enforces over 400 laws and regulations for more than 40 federal 
agencies. Naturally, the ports of entry in the Gulf area are a major 
focus of these efforts.
    While Customs is able to inspect only a relatively small percentage 
of the massive volume of cargo entering the United States each day, we 
rely on a careful, multi-layered targeting approach to select goods for 
intensive examination. Our risk management strategy incorporates the 
use of intelligence and advance information from shippers, the 
deployment of sophisticated technologies, and the skill and expertise 
of Customs personnel to sift out suspicious goods from the vast ocean 
of legitimate trade before they enter the commerce of the United 
States.
    In addition, under the direction of Commissioner Robert Bonner, the 
agency is engaging the private sector in a new Customs-trade 
partnership to defend the entire length of the product supply chain 
from penetration by terrorists or the implements of terrorism. And we 
are undertaking new initiatives with our international partners in an 
ongoing effort to expand the perimeter of inspection away from the port 
of entry and towards the point of origin.
    The Customs Service also continues to build upon established 
cooperative relationships with the Immigration & Naturalization 
Service, Department of Agriculture, Coast Guard and other federal 
agencies, state and local authorities, and Port Authorities within the 
Gulf area. Using a collaborative approach, these agencies are employing 
targeting, tools and technology and risk management techniques to 
select people, vessels, and cargo for increased inspection.
    Trade and travel into the Gulf area continues to increase. During 
FY 2001, over 12,000 vessels and 135,000 containers entered through the 
8 seaports in our Gulf area from Mobile, Alabama to Lake Charles, 
Louisiana. Approximately 4,200 vessels and 81,000 containers alone 
arrived in the Port of New Orleans. These numbers represent an increase 
of over 8 percent compared to the same period last year.
    Sea passenger counts, which include cruise ship passengers and 
crewmembers were over 150,000 in FY 2001. This represented a decrease 
of 6.9 percent from the previous year, mainly due to financial problems 
with one of our major cruise ship lines. Due to major improvements by 
the Port at the Julia St. Cruise Ship Terminal, we do expect cruise 
vessel arrivals to increase through the port of New Orleans within the 
next two years. Port authority projections are that cruise ship 
passengers will increase by 300 percent by FY 2003.
    In response to the terrorist attacks of September 11, 2001, the 
U.S. Customs Service immediately implemented a Level One Alert for all 
personnel and ports of entry. This is our highest state of alert, 
calling for sustained, intensive anti-terrorist operations. We remain 
at Level One Alert today.
    Prior to September 11, 2001, our major threat in our area was 
narcotics and its proceeds. After September 11th, we have refocused our 
resources to passengers, vessels, and cargo arriving or departing from 
or to countries identified as high risk for terrorists and the 
implements of terrorism.
    We do not expect our changing priorities to have a negative impact 
on our traditional law enforcement mission. To the contrary, we expect, 
and we have seen mounting evidence to the effect that heightened 
counter-terrorist measures by the Customs Service are strengthening our 
overall interdiction efforts and are increasing drug seizures.
    Customs in New Orleans immediately increased inspections on all 
modes of transportation. Because of watch lists issued for suspected 
terrorists, Customs increased inspections for air and sea passengers 
both inbound and outbound through Louis Armstrong Airport and the Julia 
St. Terminal, and we worked in close coordination with both the INS and 
FBI to identify suspects on the watch list.
    We are also targeting and inspecting high-risk shipments that could 
be used in terrorist attacks against our country. Customs uses 
intelligence, data systems and physical inspection with high tech 
equipment to identify which vessels and containers to examine. Along 
with the Office of Investigations, an Intelligence Collection and 
Analysis Team has been established in New Orleans. This 
interdisciplinary team's main mission is to target high-risk vessels 
entering through area seaports. As a result, we have increased 
inspections of containers, utilizing the Vehicle and Cargo Inspection 
System (VACIS), a mobile container X-ray system.
    High-risk vessels and shipments have been inspected using a multi-
agency approach. During these inspections the different entities 
contribute their expertise and resources. We are conducting these 
inspections with Customs agents, K-9 teams, Louisiana National Guard 
and Customs technology to include the X-ray equipment and radiation 
pagers. The Coast Guard, FBI, Louisiana State Police, Louisiana Dept of 
Environmental Quality, Port Harbor Police and the Jefferson Parish 
Sheriff bomb dogs have assisted us in targeting and inspections. These 
inspections have resulted in a closer working relationship among these 
different agencies.
    Our ports within the five-state area have also responded to the 
threat on the northern border by sending personnel to assist 
inspections at Detroit and Port Huron. The Port of New Orleans, 
Contraband Enforcement Team also supports the inspections of high-risk 
vessels at the seaports of Morgan City, Baton Rouge, Gramercy, Lake 
Charles, Gulfport and Pascagoula. Customs personnel will also be 
lending support at the Super Bowl to be held later this month in New 
Orleans.
    From an overall perspective, the volume of trade and traffic in our 
ports of entry has put immense pressure on our ability to enforce the 
nation's laws while facilitating international trade, even before 
September 11. After September 11, our challenge has risen to a new 
level. Although we have taken many steps to address these challenges, 
we still face many more.
    It is over 80 miles from the mouth of the Mississippi to the City 
of New Orleans. On both sides of the river are numerous private and 
public docks, anchorage locations, grain elevators and oil refineries. 
Providing security within this area and upriver takes a coordinated 
effort between the different federal agencies, port authorities and 
state/local law enforcement entities. Our industry partnerships with 
the local trade community also play a large role in our enforcement 
efforts.
    We are working within Treasury and the Administration to address 
the personnel and technology challenges. This technology has to be able 
to detect the implements of terrorism and has to be mobile to be able 
to address threats within our geographical area. The technology also 
has to be the least intrusive to be able to safeguard our employees and 
to protect the integrity of legitimate shipments.
    I want to thank you, Mr. Chairman, for this opportunity to testify. 
The U.S. Customs Service will continue to make every effort possible, 
working with our fellow inspection agencies, within the Administration, 
with Congressional leaders, and the business community to address your 
concerns and those of the American people. I would be happy to answer 
any questions you might have.

    Senator Breaux. Thank you, Ms. Moran.
    Chief Johnny Back.

  STATEMENT OF CHIEF JOHNNY R. BACK, CHIEF PATROL AGENT, NEW 
               ORLEANS SECTOR, U.S. BORDER PATROL

    Mr. Back. Mr. Chairman, my name is Johnny Back. I am the 
chief patrol agent for the New Orleans Sector of the United 
States Border Patrol, Immigration and Naturalization Service. 
Thank you very much for the opportunity to testify here.
    Senator Breaux. Pull that mike a little bit closer to you, 
please.
    Mr. Back. Is that better, sir?
    I would like to take a brief moment to familiarize you with 
the mission of the United States Border Patrol. The Border 
Patrol is the uniformed enforcement arm of the Immigration and 
Naturalization Service. The primary mission of the Border 
Patrol is the protection and prevention of smuggling and the 
illegal entry of individuals into the United States between 
ports of entry. In carrying out our mission, we coordinate our 
efforts with INS immigration inspectors located at the ports of 
entry. I am here today to discuss the operations conducted in 
this Sector, primarily those operations closely related to the 
September 11 security issues.
    A potential threat to the United States is the entry of 
persons associated with terrorist organizations via maritime 
transportation. As security procedures at traditional arrival 
sites in the United States are strengthened, criminals will 
attempt to utilize alternate methods of entry. Individuals 
could seek entry aboard a cruise line either as a passenger or 
as a bonafide crewman onboard a commercial vessel, later to 
jump ship. Of course, those who wish to do harm could also 
attempt to make an illegal entry anywhere along the Sector's 
800 miles of coastline. The job of the New Orleans Sector is 
both to try to prevent illegal entries and to ensure that those 
who do enter as crew are legitimate and depart with their 
ships.
    Our Sector has uniformed enforcement jurisdiction over a 
seven-state area encompassing 592 counties and parishes and 
approximately 362,000 square miles, including all of Louisiana, 
Mississippi, Alabama, Arkansas, Kentucky, Tennessee, and a 
portion of the Florida panhandle. Along with our Sector's 
headquarters in New Orleans, we have stations located in Lake 
Charles, in Baton Rouge, Louisiana; Gulfport, Mississippi; 
Mobile, Alabama; and Little Rock, Arkansas.
    This area has two major seaports in New Orleans and Mobile 
and 15 smaller seaports along the coast from Lake Charles 
eastward to Port St. Joe, Florida. In addition, there are 
numerous other deep and shallow water ports, anchorage 
locations, and other access points for maritime traffic. At any 
given time, there can be between several hundred and a few 
thousand alien crewmen either berthed in or in immediate 
transit through these ports and inland waterways. Each year the 
Port of New Orleans hosts more foreign-flagged vessels than any 
other U.S. port.
    In addition, the Inter-Coastal Waterway traverses the 
entire area east to west, and the Tennessee-Tombigbee Waterway 
serves as an alternate shipping route between the Gulf of 
Mexico and the Great Lakes. Both waterways handle vast amounts 
of barge and small boat traffic, some of it crewed by foreign 
nationals.
    Many coastal areas in the western part of the Sector are 
inaccessible by land transportation, and many others are 
accessible only by a single road. Numerous locations along the 
coast contain shrimp-drying docks, oil and gas platforms, and 
sulphur mines that are accessible only by water or air 
transportation, but which are prime clandestine landing sites.
    Eastward from Mobile Bay to Apalachicola, Florida, there 
are approximately 200 miles of beaches connected to Interstate 
10 by modern access roads. In many places, deep water extends 
to only a few yards offshore, and relatively large boats can 
land people or contraband with relative ease. From many beach 
areas, access to interstate bus lines or major airports is less 
than an hour away.
    Traditionally, operational activities conducted throughout 
this Sector have supported INS's national immigration policies. 
In our seven-state area, Border Patrol agents continue to 
conduct immigration checks at public transportation hubs, such 
as airports and bus stations, perform traffic checks, arrest 
and prosecute alien smugglers, and respond to the requests for 
assistance from other law enforcement agencies within the 
Sector.
    More recently, our priority has been focused on the 
immediate border; that is, coastline integrity and security. 
The New Orleans Sector is responsible for crewman control 
operations along the Gulf of Mexico from the Texas state line 
to Apalachicola, Florida, nearly 800 miles away.
    Working hand in hand with the INS inspections offices of 
the New Orleans and Atlanta district offices, we have realigned 
our enforcement resources to maximize our deterrence 
capabilities and manpower utilization. Officers share 
information and operational developments on a daily basis. We 
also closely monitor and adjust daily work schedules to provide 
optimum coverage based on the latest developments.
    To the greatest extent possible, all available agents have 
been deployed to patrol and interdiction duties in close 
proximity to our ports. This includes anchorages, docks, and 
areas of shore offering concealment and escape routes for ship 
jumpers. When possible, Border Patrol agents must review the 
suspect vehicles prior to their departure. This gives us 
advanced notification if desertions have, in fact, occurred and 
holds the shipping agents and owners to a higher 
accountability.
    Recent enhancements to our enforcement arsenal include a 
patrol helicopter equipped for over-water flights and outfitted 
with infrared vision optics for night operations. In the coming 
month, the Sector will also receive two new patrol boats 
berthed in New Orleans and Mobile. These will dramatically 
increase our on-water time and provide greater flexibility to 
our patrol operations.
    In addition to our physical efforts on the waterfront, our 
efforts include cooperation with the United States Coast Guard 
and the many harbor police departments, local law enforcement 
agencies, and transportation companies located throughout the 
area. This creates significant force multipliers that greatly 
augment our own resources. The very real contributions these 
agencies provide to our enforcement efforts are an important 
component of our effectiveness. Although shipping is up, the 
desertion rate has been cut in half since this time last year, 
and the number of landed stowaways has decreased substantially 
as well. Still, achieving real, meaningful control of this 
coast remains a problem.
    To deter illegal entries along the coast, Border Patrol 
agents conduct routine marine patrols and work closely with a 
variety of law enforcement and other agencies. Along the Gulf 
Coast, there are many entities with law enforcement and 
regulatory responsibilities to provide security, protection, 
enforcement, and oversight of many communities located along 
the Gulf Coast. Since the events of September 11, most, if not 
all, of these entities have begun to reassess their current 
operations to identify areas that are potential targets of 
terrorism and weigh their options for minimizing risk with 
their available resources.
    A natural outgrowth of that process is the development of 
the many cooperative efforts aimed at mounting a more efficient 
defense. The New Orleans Border Patrol, along with the 
district's immigration inspection officers, have made 
commitments to participate in these endeavors to the maximum 
amount possible. We are currently involved with multiple 
interagency port security and anti-terrorism law enforcement 
efforts in Louisiana, Mississippi, Alabama, and Florida.
    Examples include the Port Users Committee in Pensacola, the 
Port Security Task Force in Mobile, the Maritime Integrated 
Program Team in Baton Rouge, as well as the Harbor Safety 
Committee here in the New Orleans area. These groups, including 
federal, state, county, and local law enforcement agencies, as 
well as private industry security concerns, are working 
together to combat the terrorist threat.
    The systematic development and sharing of intelligence and 
other relevant information is critical for successful counter-
terrorism measures. We believe that this type of cooperation 
provides the greatest return on our resource commitments and is 
vital to the establishment of a viable Gulf Coast security 
initiative. It is a valuable aid to the Border Patrol's primary 
mission of preventing the illegal entry of persons into the 
United States. These efforts also bolster our commitment to the 
Attorney General's directive to make combating terrorism a 
priority of the Department of Justice.
    Mr. Chairman, the agents of the United States Border 
Patrol, the New Orleans Sector, are proud that we have been 
given an opportunity to participate in such an important arena 
in this nation's efforts to combat terrorism. We are absolutely 
committed to accomplishing our mission to the best of our 
ability. We look forward to expanding our already extensive 
relationships and partnerships with all federal, state, county, 
and local law enforcement agencies in our area of operations 
and welcome the interest of the U.S. Congress in this matter. 
Thank you very much for the opportunity to testify.
    [The prepared statement of Mr. Back follows:]

  Prepared Statement of Chief Johnny R. Back, Chief Patrol Agent, New 
                   Orleans Sector, U.S. Border Patrol

    Mr. Chairman, my name is Johnny Back. I am the Chief Patrol Agent 
for the New Orleans Sector of the United States Border Patrol, 
Immigration and Naturalization Service (INS). Thank you for the 
opportunity to testify here today.
    I would like to take a brief moment to familiarize you with the 
mission of the United States Border Patrol. The Border Patrol is a 
uniformed enforcement arm of the Immigration and Naturalization 
Service. The primary mission of the Border Patrol is the detection and 
prevention of smuggling and the illegal entry of individuals into the 
United States between ports-of-entry. In carrying out our mission, we 
coordinate our efforts with INS Immigration Inspectors located at 
ports-of-entry. I am here today to discuss the operations conducted in 
this Sector, primarily those operations closely related to post- 
September 11th security issues.
    A potential threat to the United States is the entry of persons 
associated with terrorist organizations via maritime transportation. As 
security procedures at traditional arrival sites in the United States 
are strengthened, criminals may attempt to utilize alternate entry 
methods. Individuals could seek to arrive as a passenger aboard a 
cruise line or make a legal entry into the U.S. in the guise of a 
bonafide crewman on a commercial vessel, and later jump ship. Of 
course, those who wish to do harm could also attempt to make an illegal 
entry somewhere along the Sector's 800 miles of coastline.
    The job of the New Orleans Sector on the coast is both to try to 
prevent illegal entries, and to insure that those who do enter as crew 
are legitimate and depart with their ships.

Sector Overview
    Our Sector has uniformed enforcement operational jurisdiction over 
a seven state area, encompassing 592 counties and parishes and 
approximately 362,000 square miles including: Louisiana, Mississippi, 
Alabama, Arkansas, Kentucky, Tennessee, and a portion of the Florida 
panhandle. Along with our Sector headquarters in New Orleans, we have 
stations located in Lake Charles and Baton Rouge, Louisiana; Gulfport, 
Mississippi; Mobile, Alabama and Little Rock, Arkansas.
    This Sector has jurisdiction over two major seaports in New Orleans 
and Mobile, and fifteen smaller seaports along the coast from Lake 
Charles, Louisiana eastward to Port St. Joe, Florida. There are 
numerous other deep and shallow water ports, anchorage locations, and 
other access points for maritime traffic. At any given time there can 
be several hundred to a thousand alien crewmen either berthed at, or in 
immediate transit through, these ports and inland waterways. Each year 
the port of New Orleans hosts more foreign flagged vessels than any 
other U.S. port.
    In addition, the Inter-Coastal Waterway traverses this entire area 
east to west, and the Tennessee-Tombigbee Waterway serves as an 
alternate shipping route between the Gulf of Mexico and the Great 
Lakes. Both waterways handle vast amounts of barge and small boat 
traffic, some of it crewed by foreign nationals. Many coastal areas in 
the western part of the Sector are inaccessible by land transportation 
and many others are accessible only by a single road. Numerous 
locations along the coast contain shrimp drying docks, oil and gas 
platforms and sulphur mines that are accessible only by water or air 
transportation, and which are prime clandestine landing sites.
    Eastward, from Mobile Bay to Apalachicola, Florida, there are 
approximately 200 miles of beaches connected to Interstate 10 by modern 
access roads. In many places deep water extends to only a few yards 
offshore and relatively large boats can land people or contraband with 
relative ease. From many beach areas, access to interstate bus lines or 
major airports is less than an hour away.

Operations
    Traditionally, operational activities conducted throughout the 
Sector have supported INS's national immigration policies. In our 
seven-state area, New Orleans Sector Agents continue to conduct 
immigration checks at public transportation hubs--such as airports and 
bus stations; perform traffic checks; arrest and prosecute alien 
smugglers; and respond to the requests for assistance from other law 
enforcement agencies across the Sector.
    Most recently our priority has been focused on our immediate 
border; that is, coastline integrity and security. The New Orleans 
Sector is responsible for crewman control operations along the Gulf of 
Mexico from the Texas state line to Apalachicola, Florida--a distance 
of nearly 800 miles. Working hand in hand with the INS Inspections 
Offices of the New Orleans and Atlanta District Offices we have 
realigned our enforcement resources to maximize our deterrence 
capabilities and manpower utilization. Officers share information and 
operational developments on a daily basis. We also closely monitor and 
adjust daily work schedules to provide optimum coverage based on the 
latest developments.
    To the greatest extent possible, all available Agents have been 
deployed to patrol and interdiction duties in close proximity to the 
ports. This includes anchorages, docks and areas of shore offering 
concealment and escape routes for ship jumpers. When possible, Border 
Patrol Agents review crews of suspect vehicles prior to their 
departure. This gives us advance notification if desertions have 
occurred and holds shipping agents and owners to higher accountability. 
Recent enhancements to our enforcement arsenal include a patrol 
helicopter, equipped for over-water flights and outfitted with modern 
infrared vision optics for night operations. In the coming month, the 
Sector will also receive two new patrol boats to be berthed at the New 
Orleans and Mobile stations. These will dramatically increase our on-
water time and provide greater flexibility to our patrol operations.
    In addition to our physical efforts on the waterfront, our efforts 
include cooperation with the U.S. Coast Guard and the many Harbor 
Police Departments, local law enforcement agencies and transportation 
companies located throughout the area. This creates significant force 
multipliers that greatly augment our own resources. The very real 
contributions these agencies provide to our enforcement efforts are an 
important component of our effectiveness. The desertion rate has been 
cut by half since this time last year, and the number of landed 
stowaways has decreased substantially, as well. Still, achieving real, 
meaningful control of this coast remains a challenge.
    To deter illegal entries all along the coast, Border Patrol Agents 
conduct routine marine patrols and work closely with a variety of law 
enforcement and other agencies. Along the Gulf Coast there are many 
entities with law enforcement and regulatory responsibilities to 
provide security, protection, enforcement, and oversight of many 
communities located along the Gulf Coast. Since the events of September 
11, most, if not all of these entities have begun to reassess their 
current operations to identify areas that are potential targets of 
terrorism and weigh their options for minimizing the risk with their 
available resources. A natural outgrowth of that process is the 
development of many cooperative efforts aimed at mounting a more 
efficient defense. The New Orleans Border Patrol, along with the INS 
District's Immigration Inspections officers, have made commitments to 
participate in these endeavors as much as possible. We are currently 
involved with multiple inter-agency port security and anti-terrorism 
law enforcement efforts in Louisiana, Mississippi, Alabama and Florida.
    Examples include the Port Users Committee in Pensacola, Florida, 
the Port Security Task Force in Mobile, Alabama, the Maritime 
Integrated Program Team in Baton Rouge, as well as the Harbor Safety 
Committee here in the New Orleans area. These groups, including 
federal, state, county, and local law enforcement agencies, as well as 
private industry security groups, are working together to combat the 
terrorist threat.
    The systematic development and sharing of intelligence and other 
relevant information is critical for successful counter-terrorism 
measures. We believe that this type of cooperation provides the 
greatest return on our resource commitments and is vital to the 
establishment of a viable Gulf Coast security initiative. It is a 
valuable aid to the Border Patrol's primary mission of preventing the 
illegal entry of persons into the United States. These efforts also 
bolster our commitment to the Attorney General's directive to make 
combating terrorism a priority of the Department of Justice.
    Mr. Chairman, the Agents of the New Orleans Border Patrol Sector 
are proud that we have been given an opportunity to participate in such 
an important arena in this Nation's efforts to combat terrorism. We are 
absolutely committed to accomplishing our mission to the best of our 
ability. We look forward to expanding our already extensive 
relationships and partnerships with all federal, state, county and 
local law enforcement agencies in our area of operations, and welcome 
the interest of the United States Congress in this matter. Thank you 
for the opportunity to testify before you today. I am happy to take any 
questions at this time.

    Senator Breaux. Thank you very much, Chief Back, and thank 
all of the panel witnesses for being with us and for the help 
and assistance that you have provided.
    Let me start with you, Admiral Casto. The legislation that 
has passed the Senate requires that for the first time ever all 
of the ports in the United States have a comprehensive security 
plan in place. Does the Port of New Orleans have a 
comprehensive security plan?
    Admiral Casto. I defer that to Captain Rochon being the 
captain of the port.
    Captain Rochon. Mr. Chairman, we don't have, per se, a 
comprehensive security plan. There are a lot of plans that are 
in the port already responsible for both the vessels and 
facilities that normally were set up to respond to safety 
related issues.
    Senator Breaux. All of these were pre-9/11?
    Admiral Casto. Pre-9/11, sir.
    Senator Breaux. So if I asked the question, ``Who is in 
charge of security in the Port of New Orleans?'' what is your 
answer?
    Captain Rochon. Well, my answer would be that it is a team 
effort, sir. We and the Coast Guard have the primary 
responsibility for port security, but we certainly----
    Senator Breaux. Does that include shore side?
    Captain Rochon. Adjacent to the water, yes, sir, not 
beyond, adjacent. Beyond that, particularly for facilities like 
let's say a refinery that's not right on the shore, the 
refinery itself has security for their own facility. Anything 
adjacent to the water is----
    Senator Breaux. The point I made in the opening was that if 
everybody's in charge, then no one's in charge. That is why the 
legislation really requires a comprehensive plan. We have got 
the Customs part which does some functions, the Border Patrol 
does some functions, and I even have to ask you where is INS? 
Are you part of INS?
    Captain Rochon. Yes, we are.
    Senator Breaux. You are part of INS. You are Border Patrol 
Immigration and Naturalization Services. I also have the FBI. I 
have the sheriff's department. I have the Border Patrol. I have 
all of these institutions that have something to do with 
security. I'm just concerned. I think that is why Congress has 
said, ``Look, we have got to have a comprehensive plan.'' We 
are not talking about everybody having their own little area of 
responsibility and not coordinating it and not sharing 
information. A lot of information agencies jealousy guard and 
others don't get.
    You know, like INS has that, but Customs can't have it. The 
Coast Guard has it, but then the Border Patrol can't get it. It 
is really very important to develop a comprehensive plan that 
involves the private sector in the ports as well. I talked to 
the port people about that. That is one thing that is 
important.
    One of the things that we saw this morning was the VTS 
system, which I would congratulate really everyone. Congress 
has been a major player in this, appropriating money for the 
Vessel Traffic System here in New Orleans. They don't have one 
of these in Port of New Orleans. I don't think they have one in 
Houston.
    Admiral Casto. Yes.
    Senator Breaux. Do they have one? Well, it is not as good 
as ours (laughter). They don't even have one in Port 
Everglades. It is a terrific system. I'm convinced, just as an 
amateur if you will, that the greatest threat of security at 
the ports is not so much from a terrorist taking over a ship, 
although that is a legitimate threat, but a greater threat is 
like we had with the U.S.S. Cole where a very small vessel 
pulled along side a Naval vessel and blew it from here to 
kingdom come with loss of life, tragically, and it almost sank 
a Naval vessel. Therefore, you have to know where these vessels 
are at all points.
    One of the things that we looked at today was that 
apparently the IMO organization regulating international safety 
has a phase-in for having transponders on ships that come into 
this area or any area, but that some of those transponder 
requirements are not going to be effective until the year 2007. 
Some of those ships that if you are looking at with the VTS 
system--I take it that if you do not have a transponder on it, 
you are not getting back a reliable indication of where they 
are or how fast they are going or what direction they are 
going.
    Admiral Casto. Unless they are in an area where it has 
radar coverage.
    Senator Breaux. That is something that I think we are going 
to have to address. I think it is absolutely unacceptable in 
today's modern age--and I'll ask you what you think about 
this--the United States as a government should say that every 
ship that calls on an American port should be equipped with a 
transponder, so that the Vessel Traffic System can know where 
that ship is, where it is going, what is the name, what is the 
registration, and what type of cargo that it is carrying. The 
year 2007 as the end completion date is far too long.
    I mean cars have GPS systems on them for Christ's sake. 
Every plane that lands at the Lakefront or lands at Armstrong 
Airport has a transponder so they can know where that plane is 
at all times within this area. There is no reason that we 
should not have a faster date for requiring the same type of 
transponder on ships that come into the port. Now, do you think 
it would be helpful if that date was speeded up?
    Admiral Casto. Yes, sir. I think that is pretty obvious. I 
can tell you it is being worked on. That timetable that you saw 
today was put together in the pre-September 11 environment. It 
was put together in conjunction with the International Maritime 
Organization, which is an agency under the auspices of the 
United Nations. The Coast Guard has been working on a proposal 
that will be presented at the IMO Intercessional Meeting coming 
up I believe this spring. I may be wrong about that, but 
sometime soon to accelerate that date to I believe it is going 
to be 2004.
    Senator Breaux. I tell you what, we are not going to wait 
that long. There is nothing that will prohibit, I think, 
Congress from requiring all ships calling on American ports to 
have transponder equipment onboard. It does not cost that much 
relatively speaking. The benefits I think greatly outweigh the 
costs. You could have portable transponders on ships. When the 
sea marshal or the river pilot boards the ship without a marker 
and the ship doesn't have a transponder, we can give them one 
or lease them one.
    Admiral Casto. There is certainly precedent for that. If 
you recall, being in Congress for quite a while, the Inclusion 
Act back in 1990 I think it was or 1991 of the United States's 
Unilateral Action, and I think if you take a look at the 
history of what has developed since then, I think most of the 
rest of the world will follow suit as well.
    Senator Breaux. We are going to offer legislation as an 
amendment which would require a greatly accelerated requirement 
date for having that on them. Now, I take it that you 
identified certain ships as--what do you call them, high-
interest?
    Admiral Casto. High-interest vessels.
    Senator Breaux. What leads to the decision to say that a 
particular vessel is a high-interest vessel?
    Admiral Casto. Certain categories. For instance, the Coast 
Guard put into effect a new rule requiring 96 hours of every 
vessel entering a U.S. Port that is over 300 gross tons, that 
you had to report in 96 hours in advance. Cargo information, 
crew list information, port of origin, as Ms. Moran mentioned, 
peaks your risk base decision matrix, but typically, here you 
might have a crew list coming in and a name gets compared on 
the FBI's list. It may be the same name of somebody who's on 
that list, and we've had that happen more than once. A name 
that looks pretty unique to us, in Arabic I found is equivalent 
to John Smith, so that is the kind of thing we look for. We 
also look for cargo, in particular, hazardous gases, LNG, LHG, 
that will automatically put that ship into the high-interest 
vessel category.
    Senator Breaux. Didn't I hear this morning that there are 
incidences where the information on a ship is sent to a 
facility in--West Virginia was it?
    Admiral Casto. Yes, sir.
    Senator Breaux. And that in some cases you do not have 
information on the actual cargo in the ship coming into New 
Orleans; isn't that correct?
    Admiral Casto. That could be the case, yes, sir.
    Senator Breaux. How is that possible? Where does that 
information go?
    Admiral Casto. The West Virginia facility really was 
schooled up in the wake of September 11. We had found that not 
all hazardous cargos had been identified through there. But we 
have, on our own, working with the Customs people, the Port 
Authority people, identified ships that are coming in with 
hazardous cargos, and we put those into the HIV category.
    Senator Breaux. Is it not possible, as someone said this 
morning, that you can have ships coming into this port, and in 
some cases, you do not know what is in the cargo?
    Admiral Casto. It is possible, yes, sir. One of the things 
that----
    Senator Breaux. Why is that possible? Who is falling down 
on that, we in Congress or is it the Coast Guard? Is it 
Customs? How come somebody in West Virginia can know what the 
cargo is on a ship on the Mississippi River, but you do not 
know?
    Admiral Casto. Let me go ahead and----
    Captain Rochon. Mr. Chairman, we do know what comes in 
because each vessel is required to give us a cargo manifest and 
a crew list and a passenger list in 96 hours. The National 
Maritime Center in West Virginia simply prepares that list and 
shares it with the other agencies to make sure that crew or 
that cargo matches whatever list that they are comparing to it, 
the FBI and INS, but we know before that vessel comes in what 
is in that cargo.
    The only thing you may have heard this morning is that how 
do we know for sure that what they reported is actually in that 
container? That is where we may not know, and that is the thing 
that we try to do by inspecting, working with Customs, the 
containers that come in, but we do know, at least before that 
vessel hits the U.S. territory waters, what they are reporting.
    Senator Breaux. So what you are saying is that before a 
ship comes into the Port of New Orleans we know what they have 
told us is in the cargo?
    Captain Rochon. Yes, sir.
    Senator Breaux. But if they say it is general cargo and it 
happens to be explosive cargo, we do not know that unless we 
actually did a boarding of the ship and an actual physical 
inspection of the ship?
    Captain Rochon. That is possible that we do not always know 
what is inside the container.
    Admiral Casto. We fought that issue with drugs for a large 
number of years.
    Senator Breaux. I am not being critical. I'm just saying 
you give me cause for concern that we may have a ship coming up 
the river and maybe someone in China told us it was general 
cargo and there may be fireworks on it. It could be something 
hazardous. Is there any way to correct that?
    Admiral Casto. Yes, there is, Mr. Chairman. Some of the 
ways to do that are being looked at right now under the 
auspices of the Secretary of Transportation looking to push our 
borders out and do things like inspection of cargos and ships 
where they are loaded in another country and to do things in a 
risk-based way to identify trusted carriers. Sometimes we call 
them ``frequent flyers.'' People who continue to make the same 
trips over and over become trusted and then people that are out 
of the ordinary. Those things are being looked at. I know there 
is a study group under way under the Department of 
Transportation looking for ways that we can make it better.
    Senator Breaux. Congressman Vitter.
    Mr. Vitter. I do not have any.
    Senator Breaux. Let me ask just a couple more. Do you have 
any zone restrictions in the Port of Orleans?
    Captain Rochon. Right after 9/11, Mr. Chairman, we 
established security zones at various areas up and down the 
river. I have a major concern about the Naval vessels that we 
establish Naval protection zones for and working with Navy 
support activity and the Navy pretty heavily. We have 
petrochemical plants all the way up--hundreds of them between 
New Orleans and Baton Rouge, vessels, cruise ships. We also 
have safety zones which, in effect, helps do the same thing. We 
enforce those with Coast Guard assets, boats, Navy. Harbor 
Patrol has been very helpful, Customs. We put Coast Guard 
uniforms on some of the other platforms. There's been a 
tremendous amount of interagency cooperation.
    Senator Breaux. Is there a restricted zone around the high-
interest vessels?
    Captain Rochon. Not per se, Senator. There is not a 
restriction zone around the vessel itself.
    Senator Breaux. Let me ask you, if I have a high-interest 
vessel that is sitting somewhere up the river that is loaded 
with particularly volatile materials, gasoline, diesel fuel, 
propane, you name it, there is nothing that automatically 
prohibits a small vessel from pulling up along side that vessel 
and getting as close as they want to take a look at it?
    Captain Rochon. There is no restriction or security zone 
around that particular vessel, but----
    Senator Breaux. Should there be?
    Captain Rochon. We have 6 to 7 high-interest vessels that 
come in per week.
    Senator Breaux. How many?
    Captain Rochon. Six to 7, sir, come into the port area, the 
four major ports between Plaquemines, New Orleans, South 
Louisiana, and Baton Rouge. That is a large number without the 
resources to enforce that, which means boats and people. You 
can set up a security zone, but if you do not have the 
resources to enforce that security zone, then there is no good 
in setting it up.
    We try to work along with all of the other agencies, 
including the facilities. The facilities do not have access to 
do waterside security, so there is a resource issue involved 
with that many vessels, but there is security. I mean we check. 
There is no security plan, per se, that's in writing because 
prior to 9/11 that was not even an issue, but there are armed 
guards. Facilities have armed guards. We check their fencing, 
their lighting.
    Senator Breaux. There are no armed guards that are 
patrolling the ship from the water?
    Captain Rochon. Yes, Mr. Chairman, we do have Coast Guard 
patrol boats. We have Coast Guard helicopters that fly over, 
but not 24-hours, 7 days a week. It is more----
    Senator Breaux. There is not a station around a high-
interest vessel to prohibit other boats from coming up to it?
    Captain Rochon. No, sir. There are not enough resources in 
this area to handle that many vessels.
    Senator Breaux. How are we doing on your search and rescue 
operations? I know you had a lot of manpower diverted, people 
diverted to the terrorism threat, and yet you still have an 
obligation for an incredibly important search and rescue 
mission as well as fishing in the Gulf of Mexico. How are you 
able to handle any of this?
    Admiral Casto. I can assure you that as homeland security 
has been elevated, it has been elevated at the same place as 
our search and rescue. Our search and rescue capabilities have 
not been impacted by this, but I will tell you, sir, that our 
law enforcement activities, while not entirely curtailed, are 
approaching that.
    Senator Breaux. The law enforcement?
    Admiral Casto. Fisheries law enforcement in particular, 
yes, sir.
    Senator Breaux. Search and rescue has not been adversely 
impacted, or you just have not had an incident maybe?
    Admiral Casto. Oh, we have search and rescue at the top of 
our priority list. We think search and rescue defines to a 
large extent the full yarn of why the American public finds us 
so valuable, and we have not, and I doubt that we will ever, 
drop back and make search and rescue a secondary priority.
    Senator Breaux. We have given you an awful lot of 
assignments nationwide, and we hope that we also follow through 
with adequate resources. Everything you do is incredibly 
important. Now your responsibilities are even greater than they 
have ever been before, really probably in the history of this 
country. You are very important. And we want to make sure we 
give you the adequate resource to get the job done.
    Ms. Moran, do you have what you would consider to be 
adequate physical operations within the port? One of the 
problems they were telling me in the Everglades was people 
coming off the ships--a little different here, because you have 
so many passengers there. There are literally thousands and 
thousands every day, that Customs did not consider have 
adequate--along with INS--space within the port to really take 
a look at all of the people coming off of these ships. Do you 
have any kind of problems like that?
    Ms. Moran. Well, we have been working very closely in the 
last 2 years with the Port Authority on some of the 
improvements that have occurred at the Julia Street Cruise 
Terminal. As far as for the next couple of years because of the 
increase, I think the staggering of them will help, because as 
you know so many come in on Friday, Saturday, and Sunday, those 
are the busiest times, so we never ran out of space. At least 
the last 2 years I have been here we never ran out of space.
    Senator Breaux. Are there any other potential problems that 
Customs faces in the Port of New Orleans that you need us to 
know about?
    Ms. Moran. Well, I think I discussed most of the issues 
that we are involved in. I think, as I said, we have been 
trying to support the northern border. We are supporting some 
of the special events like the Super Bowl.
    Senator Breaux. We talked at the last hearing, Congressman 
Shaw and I, we had Immigration and Naturalization in and 
Customs in, and Immigration is looking at the people coming in, 
and Customs is looking at what the people coming in are 
bringing in. So it was kind of like, you know, we suggested why 
do we not just combine the two, and have one agency do both at 
the same time? Of course, the two heads of the agency went 
(indicating a gasp) when we talked about it.
    [Laughter].
    They did not like that suggestion, but really, you are 
looking at what people bring in, and you are looking at people 
who do come in, and she is looking at people, as to what the 
people who are coming in bring in, and it looks like we could--
we have just so got many federal agencies, you know.
    But anyhow, I thank the panel, David, if you have no 
questions, we appreciate and look forward to continuing the 
work with you. This is an ongoing thing. We are not here, the 
Congress is not here to lecture or teach. It is more we are 
here to learn what the problems are and how we can be helpful 
and hopefully solve them. Thank you very much for your 
presentations.
    I would like to welcome up our second panel, which would be 
the Port Director of New Orleans. Welcome back home, Gary 
LaGrange, as Port Director of New Orleans; Chief Robert Hecker, 
who is the superintendent of the Harbor Police Department; Mr. 
Ken Kaiser is charge in the New Orleans Field Office of the 
Federal Bureau of Investigations; Captain Douglas Grubbs of the 
Crescent River Pilots Association; and Mr. Channing Hayden is 
the president of the Steamship Association of Louisiana.
    Gentlemen, we welcome you and are pleased that you are 
here.
    Mr. LaGrange, Gary, I am glad to have you before our 
Committee and I am glad to have you back in New Orleans.

                  STATEMENT OF GARY LAGRANGE, 
                 DIRECTOR, PORT OF NEW ORLEANS

    Mr. LaGrange. Thank you, sir. The pleasure is all mine. It 
is indeed a pleasure to be back, particularly among such a 
distinguished panel, particularly ``Fast Break'' Bob Hecker, 
who was on our U.S.L. basketball team when you and I were 
there.
    Senator Breaux. He is a little heavier than he used to be, 
huh?
    [Laughter.]
    Mr. LaGrange. I think we all are.
    Senator Breaux. That is right.
    Mr. LaGrange. I am particularly elated how fitting it is to 
be able to testify. I do not know how many people really 
realize, but the American Association of Port Authorities last 
year, the year 2001, which consists of all the ports in the 
Western Hemisphere, North America and South America, 
collectively made as their 2001 AAPA Port Person of the Year 
Senator John Breaux, so I think it is really fitting that you 
be conducting this here for the state. Thanks for taking care 
of us.
    Here at the Port of the New Orleans--we were talking a 
little earlier--we are probably, if not the most diversified, 
probably one of the most diversified ports in the entire world. 
From a collective standpoint, including the Ports of Baton 
Rouge, South Louisiana, New Orleans, Sacred Heart, and 
Plaquemines, from Baton Rouge to the mouth of the river, 
collectively, we are the largest port in the world, even bigger 
than Rotterdam and Singapore. We are really proud of that. You 
witnessed firsthand some of the traffic on the river today.
    Mr. Chairman, the Port of New Orleans is pleased to be one 
of three United States ports selected to host your seaport 
security hearings. But let me also welcome you to the port, and 
Congressman Vitter back home as well.
    Prior to September 11, 2001, security certainly was not at 
the top of our list in terms of priorities at any of the ports 
in the United States, particularly here in New Orleans as well. 
Needless to say, in less than 1 hour that morning it rose to 
the top of the list really quickly. Protecting America's ports 
is critical to both the nation's safety and vital to continuing 
our economic development and growth, as we know.
    America's ports handle more than 95 percent of the nation's 
oversees trade by volume. Goods from every state in the nation 
are transported through the United States ports to 
international markets. Ports support the mobilization and 
deployment of the United States Armed Forces and are the 
departing points for millions of cruise passengers on an annual 
basis.
    From our offices here at the Port of New Orleans, we 
observe an immense flow of commerce unmatched anywhere else in 
the world. Each year, more than 427 million tons of foreign and 
domestic waterborne commerce move through the consolidated 
deepwater ports of Louisiana situated on the Lower Mississippi 
River, as I said, between Baton Rouge and the Gulf of Mexico.
    Ninety-one percent of America's foreign merchandise trade 
by volume, two-thirds by value, and 21 percent of the nation's 
foreign waterborne commerce pass through Louisiana's ports.
    More than 229,000 barges, 2,300 oceangoing vessels operated 
by more than 80 steamship lines serving U.S. trade from more 
than 150 different countries call on the Port of New Orleans on 
an annual basis.
    The Port and the Mississippi River serves 42 states, 
America's heartland, not to mention a good portion of the 
Northeast as well, from a supply standpoint. The heartland 
region currently produces 60 percent of the nation's 
agricultural products. One shipment which you saw just recently 
went to Cuba as part of a hurricane aid and relief program, 
first one in 40 years. One-half of all of its manufactured 
goods is produced and comes through the river, and 90 percent 
of the machinery and transportation equipment manufactured in 
the United States comes right through the port. Any disruption 
of distribution in the Lower Mississippi, no matter how brief, 
would seriously disrupt the nation's economy, at any point.
    In addition to the flow of cargos such as grain, steel, and 
coffee, nearly half a million cruise line passengers travel 
through the Port of New Orleans each year. As you heard the 
predictions a little earlier, we anticipate that is going to 
grow by 300 percent, having just recently announced one of 
Carnival's ships, the HOLIDAY, from San Juan is being projected 
for 150 calls over the next 2 years, and Royal Caribbean just 
announced 48 calls for two of its new vessels, and Carnival's 
largest ship, the CONQUEST, will hopefully be here as of 
November of this year. We face many of the same challenges as 
the nation's airports and airlines. Working with the Customs 
Service and Coast Guard, our Harbor Police Department has 
responsibility to ensure a safe cruise environment.
    Since September 11, America's ports have instituted 
heightened security measures and have invested in increased 
security measures. Determining the adequacy of these measures 
and whether they can be sustained over an indefinite time 
period, and at what cost, are the major issues facing ports, as 
well as local and Federal Government agencies today.
    These hearings on seaport security are being held to help 
develop a national strategy policy for port security in 
response to the threat of terrorism. The challenges we face 
include the development of a port security measure that assures 
to the greatest extent possible the safety and security of the 
American people; the protection and the ongoing and efficient 
operation of the nation's vital maritime transportation assets; 
and that meets the needs and is sensitive to the unique 
characteristics of America's ports, which are not all alike. 
They are unique.
    In addressing these issues and challenges, we here at the 
Port of New Orleans have worked closely with other ports 
throughout the Western Hemisphere under the auspices of the 
American Association of Port Authorities.
    We have deep security concerns, as well as proposed 
legislation, and offer the following points with the purpose of 
fine-tuning seaport security policies and assuring the 
provision of adequate resources to effectively counter 
terrorist threats to our nation's ports and waterways.
    As noted, protecting America's ports is critical to the 
nation's economic vitality and continued growth. Point one, 
ports are a vital part of the nation's transportation 
infrastructure. Ports handle 95 percent of U.S. overseas trade 
by volume. International trade accounts for almost one-quarter 
of the U.S. Gross Domestic Product. The port industry generates 
more than 13 million jobs nationally. Ports support the 
mobilization and deployment of U.S. Armed Forces. In the year 
2000, more than 6 million North American passengers began and 
ended their cruise vacations from a United States port. 
Virtually all imported crude petroleum products arrive by 
oceangoing vessels in U.S. ports. Ports enhance our quality of 
life by providing consumers with a variety of product choices 
and employment for importers and exporters as well.
    The United States Coast Guard and Customs must take the 
lead in protecting America's ports and inspecting vessels and 
cargo. Ports are located on international borders, and the 
Federal Government is responsible for approving and inspecting 
both cargo and passengers moving out of public ports. The 
Federal Government must provide those resources necessary to 
assure that these agencies can carry out critical functions in 
the provision of seaport security.
    Meeting enhanced seaport security requirements is a shared 
responsibility of both the ports and the Federal Government. We 
accept that. Homeland security is the top priority of our 
government, and protecting America's transportation system, 
including public ports, is essential.
    At the national level, the Federal Government must make 
immediate and significant investments in enhanced intelligence 
information, management, information technology, and domestic 
and foreign ports assessments. Both the Coast Guard and the 
Customs Service have indicated that information is required on 
vessels calling at U.S. ports and cargo shipments.
    Individual seaport security involves multiple state, local, 
and Federal Government jurisdictions, as well as the private 
sector. Numerous federal agencies share law enforcement 
responsibilities at all seaports. Clearly, ports will not be 
able to meet enhanced security requirements on their own, and 
federal help will be needed to provide ports with the financial 
assistance required to protect these vital transportation 
links. We have seen a significant increase in security-related 
costs here at the Port of New Orleans. These extra costs were 
not budgeted. We pay for increased security with money that is 
otherwise earmarked for our operations, construction, 
maintenance, and marketing.
    I would say one of the most salient points of the entire 
issue, the most important and germane, is that immediate and 
substantial funding is required for the development of 
coordinated security and communication plans. In addition, 
significant security enhancements are called for in the areas 
of the provision of trained security personnel, controlling 
access to port facilities and terminals, as well as physical 
security measures such as perimeter fencing, gates, barriers, 
identification/credentialing systems, cameras, and, of course, 
lighting.
    What is the cost of enhanced security for seaports, and 
what is the appropriate federal response? In the Fall 2000 
report to Congress, the Interagency Commission on Crime and 
Security at U.S. Seaports estimated that enhanced security--
this is pre-9/11--would cost between $14 and $40 million per 
port. This amount was calculated prior to September 11, as I 
said, when port security resources were invested primarily in 
preventing crime and cargo support.
    As you probably heard yesterday, Senator, and more 
recently, the Florida Ports Commission came up with a figure 
since 9/11 of $80 to $100 million in investments. However, at 
this time is it difficult for ports to provide specific cost 
estimates for security enhancements because the nature and the 
scope of these enhancements are still yet unclear, although 
they are focusing more and more each day.
    The Port of New Orleans and the AAPA are generally 
supportive of current federal legislation to provide much-
needed federal financial support for public port authorities. 
In fact, AAPA recommended many of the provisions included in 
the Hollings Bill (S. 1214). This legislation provides ports 
with $390 million, as you know, in cost-sharing grants and $166 
million in low-interest, long-term loan guarantees for security 
enhancements. However, we are concerned that security plans 
included in this legislation advocate a cookie-cutter approach 
that may not be effective for all ports, since all ports are 
unique and different.
    AAPA's 85 United States Public Port Authority members 
include a wide variety of operational and organizational 
structures. They include major container ports and smaller 
specialty cargo and dry and liquid cargo ports. The Port of New 
Orleans has an extraordinarily diversified cargo base, 
including significant quantities of break bulk, containerized, 
and liquid and dry bulk cargos, as well as the differing types 
of facilities required to handle these cargos.
    The organizational structure of ports vary as well. There 
are operating ports, and then there are landlord ports. Some 
ports provide security and others rely on local government or 
the private sector to provide their security. The point here is 
that different types of ports have different types of security 
requirements, and federal legislation must have sufficient 
flexibility to meet these very diverse needs.
    We also strongly support the provision of increased federal 
resources for port authorities, Customs, and the Coast Guard 
beyond those authorized in the Hollings bill. Adequate funding 
is essential to assure that our nation's ports remain open and 
that commerce moves without interruption.
    Our friends at Transport Canada have also undertaken an 
initiative to enhance seaport security. Their primary objective 
is to determine what measures ports have already taken to meet 
security risks and determine what measures can be put in place 
immediately or in the near term to enhance security. They are 
also provided the necessary appropriations for those 
improvements to the ports in Canada. To accomplish this, 
Transport Canada has developed and distributed a security 
checklist to Canadian ports to facilitate the risk assessment.
    The United States ports are dealing with the financial 
impact of providing security in this post-September 11 world. 
The war against terrorism will not be brief, as you well know. 
Enhanced port security is not an issue of the day. We are all 
in it for the long haul. Port authorities welcome the benefits 
provided in the Port and Maritime Security Act and certainly 
Congressman Vitter is writing legislation which is soon to be 
submitted and filed. This legislation will help us keep 
America's ports open, safe, and secure.
    Again, I want to thank you for being here today and taking 
the time and for allowing us this forum.
    [The prepared statement of Mr. LaGrange follows:]

   Prepared Statement of Gary LaGrange, Director, Port of New Orleans
    Mr. Chairman, the Port of New Orleans is pleased to be one of three 
United States ports selected to host seaport-security hearings. And, 
also, let me also welcome you to the Port and City of New Orleans.
    Prior to September 11, 2001, security was one of the many concerns 
of this port and ports across the country. On the morning of September 
11th, Homeland Security moved to front and center.
    Protecting America's ports is critical to both the nation's safety 
and vital to its continuing economic growth. America's ports handle 95 
percent of the nation's overseas trade by volume--goods from every 
state in the nation are transported through U.S. ports to international 
markets. Ports support the mobilization and deployment of U.S. Armed 
Forces; and are the departure points for millions of cruise passengers 
annually.
    From our offices here at the Port of New Orleans we observe an 
immense flow of commerce, unmatched anywhere else in the world.

  <bullet> Each year, more than 427 million tons of foreign and 
        domestic waterborne commerce move through the consolidated 
        deepwater ports of Louisiana situated on the lower Mississippi 
        River between Baton Rouge and the Gulf of Mexico.

  <bullet> Ninety one percent of America's foreign merchandise trade by 
        volume (two-thirds by value), and 2l percent of the nation's 
        foreign waterborne commerce pass through Louisiana's ports.

  <bullet> More than 229,000 barges and 2,300 oceangoing vessels 
        operated by more than 80 steamship lines serving U.S. trade 
        with more than 150 countries call the Port of New Orleans.

  <bullet> The Port of New Orleans and the Mississippi River serves 42 
        states--America's Heartland. This heartland region currently 
        produces 60 percent of the nation's agricultural products, one 
        half of all of its manufactured goods and 90 percent of its 
        machinery and transportation equipment.

    Any disruption of commerce on the lower Mississippi, no matter how 
brief, would seriously disrupt the nation's economy.
    In addition to the flow of cargoes such a grain, steel and coffee, 
nearly a half million cruise line passengers travel through the Port of 
New Orleans each year. Here we face many of the same challenges as the 
nation's airports and airlines. Working with the Customs Service and 
Coast Guard, our Harbor Police department has the responsibility of 
ensuring a safe cruise environment.
    Since September 11, America's ports have instituted heightened 
security measures and have invested in increased security measures. 
Determining the adequacy ofthese measures and whether they can be 
sustained over an indefinite time period and at what cost, are the 
major issues facing ports as well as local and federal government 
agencies today. These hearings on seaport security are being held to 
help develop a national strategic policy for port security in response 
to the threat of terrorism. The challenges we face include the 
development of a port security measures that assure to the greatest 
extent possible the safety and security of the American people; that 
protect the ongoing and efficient operation of this nation's vital 
maritime transportation assets; and that meets the needs and is 
sensitive to the unique characteristics of each of America's ports.
    In addressing these challenges, we at the Port of New Orleans have 
worked closely with other ports throughout the western hemisphere under 
the auspices of the American Association of Port Authorities. We have 
reviewed security concerns as well as proposed legislation and offer 
the following points with the purpose of fine-tuning seaport security 
policies and assuring the provision of adequate resources to 
effectively counter terrorist threats to our nation's ports and 
waterways.

  <bullet> As noted, Protecting America's ports is critical to the 
        nation's economic vitality and continued growth.

    -- Ports are a vital part of the nation's transportation 
infrastructure.

    -- Port's handle 95 percent of U.S. overseas trade by volume.

    -- International trade accounts for almost one quarter of the U.S. 
Gross Domestic Product.

    -- The port industry generates more than 13 million jobs.

    -- Ports support the mobilization and deployment of U.S. Armed 
Forces.

    -- In 2000, more than six million North American passengers began 
and ended their cruise vacations from U.S. port authorities.

    -- Virtually all imported crude petroleum products arrive by 
oceangoing vessels at U.S. ports.

    -- Ports enhance our quality of life by providing consumers with a 
variety of product choice and employment for importers and exporters.

  <bullet> The U.S. Coast Guard and Customs must take the lead in 
        protecting America's ports and inspecting vessels and cargo. 
        Ports are located on international borders and the Federal 
        Government is responsible for approving and inspecting cargo 
        and passengers moving out of public ports. The Gederal 
        Government must provide those resources necessary to assure 
        that these agencies can carry out these critical functions in 
        the provision of seaport security.

  <bullet> Meeting enhanced seaport security requirements is a shared 
        responsibility of ports and the Federal Government. Homeland 
        security is the top priority of our government, and protecting 
        America's transportation systems, including public ports, is 
        essential. At the national level, the federal government must 
        make immediate and significant investments in enhanced 
        intelligence and information management; information 
        technology; domestic and foreign ports assessments. Both the 
        Coast Guard and the Customs service have indicated that 
        information is required on vessels calling at U.S. ports and 
        cargo shipments.

    Individual Seaport security involves multiple state, local and 
federal government jurisdictions as well as the private sector. 
Numerous federal agencies share law enforcement responsibilities at 
seaports. Clearly, ports will not be able to meet enhanced security 
requirements on their own and federal help will be needed to provide 
ports with the financial assistance required to protect these vital 
transportation assets. We have seen a significant increase in security 
related costs here at the Port of New Orleans. These extra costs were 
not budgeted. We pay for increased security with money earmarked for 
other port operations such as construction, maintenance and marketing.
    Most important, immediate and substantial funding is required for 
the development of coordinated security and communications plans. In 
addition, significant security enhancements are called for in the areas 
of the provision of trained security personnel, controlling access to 
port facilities and terminals as well as physical security measures 
such as perimeter fencing, gates, barriers, 
identificationlcredentialing systems, cameras and lighting.

  <bullet> What is the cost of enhanced security for seaports and what 
        is the appropriate federal response? The fall 2000 report to 
        Congress of the Interagency Commission on Crime and Security at 
        U.S. Seaports estimated that enhanced security could cost 
        between $14 and $40 million per port. This amount was 
        calculated prior to September 11th when port security resources 
        were invested primarily in preventing crime and cargo support. 
        However, at this time it is difficult for ports to provide 
        specific cost estimates for security enhancements because the 
        nature and scope of these enhancements are unclear.

    The Port of New Orleans and the AAPA are generally supportive of 
current federal legislation to provide much needed federal financial 
support for public port authorities. In fact, AAPA recommended many 
ofthe provisions included in the Hollings Bill (S.1214). This 
legislation provides ports with $390 million in cost-sharing grants and 
$166 million in low-interest, long-term loan guarantees for security 
enhancements. However, we are concerned that security plans included in 
this legislation advocate a ``cookie cutter'' approach that may not be 
effective for all ports.
    AAPA's 85 U.S. public port authority members include a wide variety 
of operational and organizational structures. They include major 
container ports and smaller specialty cargo and dry and liquid bulk 
cargo ports. The Port of New Orleans has an extraordinarily diverse 
cargo base, including significant quantities of breakbulk, 
containerized and liquid and dry bulk cargoes, as well as the differing 
types of facilities required to handle these cargoes.
    The organizational structure of Ports vary as well. There operating 
ports and landlord ports. Some ports provide security and others rely 
on local government or the private sector to provide security. The 
point here is that different types of ports have different types of 
security requirements and federal legislation must have sufficient 
flexibility to meet these diverse needs.
    We also strongly support the provision of increased federal 
resources for port authorities, Customs and the Coast Guard beyond 
those authorized in the Hollings bill. Adequate funding is essential to 
assure that our nation's Ports remain open and that commerce flows 
without interruption.
    Our friends at Transport Canada have also undertaken an initiative 
to enhance seaport security. Their objective is to determine what 
measures ports have already taken to meet security risks and determine 
what measures can be put in place immediately or in the near-term to 
enhance security. To accomplish this, Transport Canada has developed 
and distributed a security checklist to Canadian ports to facilitate 
risk assessment.
    U.S. Ports are dealing with the financial impact of providing 
security in this post-September 11th world. The war against terrorism 
will not be brief. Enhanced port security is not an issue dujour. We 
are all in it for the long haul. Port authorities welcome the benefits 
provided in the Port and Maritime Security Act. This legislation will 
help us keep America's ports open, safe and secure.

    Senator Breaux. Thank you very much, Gary.
    Chief Robert Hecker.

        STATEMENT OF ROBERT S. HECKER, CHIEF OF POLICE, 
         HARBOR POLICE DEPARTMENT, PORT OF NEW ORLEANS

    Chief Hecker. Thank you, Mr. Chairman. My name is Robert 
Hecker. I am the chief of police for the Harbor Police 
Department for the Port of New Orleans. Before I get started, I 
want to let you know, Mr. Chairman, we are especially glad to 
see you here today because we heard that you were going to try 
to climb a Jacob's Ladder from a port launch booth to the top 
of your cargo vessel.
    Senator Breaux. I did (laughter).
    Chief Hecker. We are relieved to have you here, sir 
(laughter). That is quite a difficult task.
    Chairman Breaux, Congressman Vitter, thank you so much for 
allowing us to testify here today. As I mentioned, my name is 
Robert Hecker. I have a total of 34 years in law enforcement, 
28 years with the New Orleans Police Department, and the last 6 
years as Chief of Police with the Harbor Police Department.
    The Port of New Orleans has a distinct advantage over most 
of the other seaports in the country. Over 100 years ago, our 
forefathers had the vision to create a police force 
specifically designated to the port. The number of emergency 
personnel has changed over the years, but currently our force 
is comprised of 59 police officers and 11 firefighters.
    The Harbor Police Force is a fully trained, commissioned 
group of officers with arrest powers within the jurisdiction we 
serve. We maintain our own police academy where our police 
recruits are trained and post-certified. Our firefighters staff 
the GENERAL ROY S. KELLY, our 95-foot multi-purpose emergency 
response vessel, 24 hours a day.
    Additionally, we maintain a marine division, which is a 
group of police officers that staff the Harbor Police patrol 
boat. Both vessels respond to various types of emergencies on 
the Mississippi River and the Industrial Canal, usually 
coordinated with the U.S. Coast Guard. As a result of the 
police presence at the Port, crime has been minimal throughout 
its history. However, we realize we have a new challenge before 
us. We now have to include in our mission the possibility that 
terrorism may target our port. As a result, we have been 
working on new strategies to address this potential threat.
    We have always enjoyed an outstanding working relationship 
with the surrounding local law enforcement departments and 
federal entities, including the FBI, the U.S. Coast Guard, and 
U.S. Customs. That was never more obvious than on the morning 
of September 11, 2001. Shortly after the attacks, we all 
realized the Port of New Orleans may very well be a target. 
Within hours of the attack, members of the U.S. Customs and 
U.S. Coast Guard met with me in my office to discuss and 
implement emergency plans. The local FBI office requested that 
we send an officer to be a member of their Emergency Command 
Center, allowing to us share any incoming intelligence.
    Since September 11, 2001, we have enhanced security 
throughout the port utilizing paid overtime and redeployment of 
some officers. One of the security concerns, of course, was our 
cruise passenger terminal, which currently accommodates several 
cruise lines and thousands of passengers per week. One of the 
measures we implemented was to have a component of Harbor 
Police officers to do a security sweep of the terminal prior to 
the ships' arrival. We also utilized the GENERAL KELLEY's 
emergency response vessel to conduct security sweeps from the 
river side of the wharf. Our offices will then remain invisible 
at the terminal throughout the time the cruise ships are at the 
dock. Effective this past December, uniformed members of the 
National Guard have been supplementing our officers at the 
cruise terminal as well.
    Immediately after September 11, we began a series of 
meetings with all of the appropriate agencies to discus longer 
term strategies. On November 8th, we called a town hall style 
meeting for the Port community in response to the inundated 
number of phone calls that I received in my office.
    We invited representatives from all of the Port's tenants 
and extended the invitation to those who frequent the Port. The 
focus of the meeting was to provide up-to-date information to 
the Port community and to solicit their assistance toward the 
endeavors of the various agencies. The panel was comprised of 
representatives from the FBI, U.S. Customs, U.S. Coast Guard, 
Postal Inspector, Public Belt Railroad, INS, and local law 
enforcement agencies.
    Since September 11, we have created an anti-terrorism unit 
within our department. I must admit that in my 34 years of law 
enforcement experience, I never dreamed that I would have to 
create such a unit. The officers assigned to this unit have 
begun receiving the most up-to-date training on anti-terrorism 
procedures and technology. They recently attended training at 
Glencoe, Georgia, pertaining to seaport security. The officers 
are now conducting threat and risk assessments at various 
properties and sites throughout the Port. The documentation 
will be accessible to all appropriate agencies and may be used 
to fulfill any requirements of any grant applications as they 
pertain to current legislation.
    We have also assigned one of our detectives to be a member 
of the FBI's Joint Terrorism Task Force, again an invitation 
from the FBI. When an emergency situation occurs, our detective 
will be assigned to the task force until the emergency 
subsides. We are also in the early planning stages of 
assembling a committee comprised of local law enforcement, U.S. 
Coast Guard, and U.S. Customs to further study security 
measures at the Port.
    The Harbor Police Department is primed to take a more 
active role in the fight against terrorism as it relates to the 
Port of New Orleans. The obvious advantages in having us do so 
is that we already have an established department specifically 
assigned to the Port, we maintain our own training academy, and 
currently have an established working relationship with the 
FBI, with U.S. Coast Guard, and with U.S. Customs. We meet with 
the Port's tenants on a regular basis and can empower them to 
become partners with law enforcement with the focus on crime 
prevention and anti-terrorism.
    With the constant presence of Harbor Police at the Port, 
not only do they serve as a deterrent to potential terrorist 
activity, but will be the first responders to any emergency. 
Their training and equipment will be vital toward saving lives 
and reducing chaos. It simply makes good sense to provide these 
officers with the most advanced anti-terrorism training and 
supply them with state-of-the-art equipment suitable for our 
department.
    Finally, we hope to be included in any federally sponsored 
networking programs pertaining to information at the nation's 
seaports. I believe we all would agree that additional 
intelligence is one of the most vital components to the success 
of the war on terrorism.
    Mr. Chairman, I thank you very much.
    [The prepared statement of Chief Hecker follows:]

Prepared Statement of Robert S. Hecker, Chief of Police, Harbor Police 
                    Department, Port of New Orleans

Robert S. Hecker,
Chief of Police,
Harbor Police Department,
Port of New Orleans,
New Orleans, LA.

Committee Members:

    I have a total of 34 years of law enforcement experience; 28 years 
with the New Orleans Police Department and the last 6 years as Chief of 
Police with the Harbor Police Department.
    The Port of New Orleans has a distinct advantage over most of the 
other seaports in the country. Over 100 years ago, our forefathers had 
the vision to create a police force specifically designated to the 
Port. The number of emergency personnel has changed over the years, but 
currently our force is comprised of 59 police officers and 11 
firefighters. The Harbor Police Force is a fully-trained, fully-
commissioned group of officers with arrest powers within the 
jurisdiction we serve. We maintain our own Police Academy, where our 
police recruits are trained and post-certified. We have our own fleet 
of vehicles and our own radio system. Our firefighters staff the 
``General Roy S. Kelley,'' our 95-foot, multi-purpose Emergency 
Response Vessel, 24 hours a day. Additionally, we maintain a Marine 
Division, which is a group of police officers that staff the Harbor 
Police Patrol Boat. Both vessels respond to various types of 
emergencies in the Mississippi River and the Industrial Canal.
    As a result of the police presence at the Port, crime has been 
minimal throughout the history of the Port. However, we realize we have 
a new challenge before us. We now have to include in our mission the 
possibility that terrorists may target our Port. As a result, we have 
begun working on new strategies to address this potential threat.
    We have always enjoyed an outstanding working relationship with the 
surrounding local law enforcement departments and federal agencies 
including the FBI, U. S. Coast Guard and U. S. Customs. That was never 
more obvious than on the morning of September 11, 2001. Shortly after 
the attacks, we all realized the Port of New Orleans may be a target. 
Within an hour of the attack, members of the U.S. Customs and the U. S. 
Coast Guard met with me in my office to discuss and implement an 
emergency plan. The local FBI Office requested we send an officer to be 
a member of their Emergency Command Center, allowing us to share any 
incoming intelligence.
    Since September 11, 2001, we have enhanced security throughout the 
Port utilizing paid overtime and the redeployment of some officers. One 
of the security concerns was our cruise passenger terminal, which 
currently accommodates several cruise lines and thousands of passengers 
per week. One of the measures we implemented was to have a complement 
of Harbor Police Officers do a security sweep of the terminal prior to 
the ship's arrival. We also utilize the ``General Kelley'' Emergency 
Response Vessel to conduct security sweeps from the river side of the 
wharf. Our officers remain visible at the terminal throughout the time 
cruise ships are at the dock. Effective December 2001, uniformed 
members of the National Guard have been supplementing our officers at 
the cruise terminal.
    Immediately after September 11, 2001, we began a series of meetings 
with all of the appropriate agencies to discuss long term strategies. 
On November 8, 2001, we called a ``town hall'' style meeting for the 
Port community. We invited representatives from all of the Port's 
tenants and extended the invitation to those who frequent the Port. The 
topic of the meeting was to provide up to date information to the Port 
community and to solicit their assistance toward the endeavors of the 
various agencies. The panel was comprised of representatives from the 
FBI, U.S. Customs, U. S. Coast Guard, Postal Inspector, Public Belt 
Railroad, INS, and the local law enforcement agencies.
    Since September 11, 2001, we created an Anti-Terrorism Unit within 
our department. The officers assigned to this unit have begun receiving 
the most up-to-date training on anti-terrorism procedures and 
technology. They recently attended training at Glynco, Georgia, 
pertaining to seaport security. The officers are now conducting threat 
and risk assessments at various properties and sites throughout the 
Port. The documentation will be accessible to any appropriate agency 
and may be utilized to determine approval for federal funding as it 
pertains to the current Legislative action.
    We have also assigned one of our detectives to be member of the 
FBI's Joint Terrorism Task Force. When an emergency situation occurs, 
our detective will be assigned to the Task Force until the emergency 
subsides. We are also in the early planning stages of assembling a 
committee comprised of local law enforcement, U. S. Coast Guard and U. 
S. Customs to further study security measures at the Port.
    The Harbor Police Department is primed to take a more active role 
in the fight against terrorism as it relates to the Port of New 
Orleans. The obvious advantages in having us do so are that we already 
have an established department specifically assigned to the Port, we 
maintain our own training academy, and currently have an established 
working relationship with the FBI, U. S. Coast Guard and U. S. Customs. 
We meet with the Port's tenants on a regular basis and can empower them 
to become partners with law enforcement with the focus on crime 
prevention and anti-terrorism. With the constant presence of Harbor 
Police at the Port, not only do they serve as a deterrent to potential 
terrorist activity; but, they will be the first responders to any 
emergency. Their training and equipment will be vital toward saving 
lives and reducing chaos. It simply makes good sense to provide our 
officers with the most advanced training in the field of anti-terrorism 
and supply them with state of the art technological equipment suitable 
for our department.
        Respectfully submitted,
                                          Robert S. Hecker,
                                                   Chief of Police.

    Senator Breaux. Thank you very much, Chief.
    Ken Kaiser.

   STATEMENT OF KENNETH KAISER, SPECIAL AGENT IN CHARGE, NEW 
                  ORLEANS FIELD OFFICE, F.B.I.

    Mr. Kaiser. Good afternoon, Mr. Chairman and members of the 
Committee. I am pleased----
    Senator Breaux. Pull that mike closer.
    Mr. Kaiser. I am pleased to appear before you today to 
discuss the FBI's role in security at the New Orleans Seaport. 
The New Orleans Division of the FBI is only one of several 
different law enforcement and military agencies which has a 
connection to the New Orleans Seaport. We have an outstanding 
working relationship with our law enforcement departments, 
whether it be federal, state, or local agencies. We also have 
an excellent working relationship with the United States Coast 
Guard and the Louisiana National Guard. Through this working 
relationship, all matters of investigative interest are quickly 
coordinated between the various agencies to ensure the most 
effective response is provided.
    Coordination among the various law enforcement agencies and 
military units is enhanced by the FBI-sponsored Louisiana Joint 
Terrorism Task Force, the United States Attorney's Office Task 
Force on Terrorism, and the New Orleans Harbor Police Anti-
Terrorism Unit.
    In the near future, the Harbor Police will assign an 
officer to the Louisiana Joint Terrorism Task Force. All of the 
members of the Louisiana Joint Terrorism Task Force have work 
space assigned to them in the FBI office and report to work 
there every day. They have required background checks and 
clearances which make them an asset to the fight against 
terrorism. Through this task force, all terrorism 
investigations and issues are addressed in a coordinated 
manner. Nearly all of the members of the Louisiana Joint 
Terrorism Task Force have received formal terrorism training, 
either through the FBI or their respected agencies.
    To demonstrate the effective coordination between all 
agencies, I'd like to note that within 2 hours of the September 
11 terrorism attack on the United States, a Joint Operations 
Center was established in the New Orleans FBI office. The Joint 
Operations Center was staffed by representatives of over 20 
agencies which were either part of the Joint Terrorism Task 
Force or through some working relationship they had with the 
FBI. The Joint Operations Center coordinated the investigative 
activities of nearly 1,300 leads over the next 30 days. Many of 
these leads had some impact on the New Orleans Seaport. Thanks 
to the effort of all the investigative agencies, these leads 
were cleared to their logical conclusion.
    The FBI is keenly aware of the concerns of law enforcement 
officers regarding their need for information to help them do 
their job safely, efficiently, and completely. FBI Director 
Mueller recently demonstrated his commitment to the effort by 
establishing a new investigative coordination division within 
the FBI. The new division includes an Office of Law Enforcement 
Coordination which will be responsible for improving 
information sharing with the state and local law enforcement 
and public safety agencies. This is an area in which the FBI 
can do and must do a better job. I share Director Mueller's 
belief that our agency is but one entity and we need good 
coordination with the other law enforcement entities. We must 
all work together. Law enforcement is quite simply only as good 
as its relationships. This concludes my prepared remarks.
    [The prepared statement of Mr. Kaiser follows:]

  Prepared Statement of Kenneth Kaiser, Special Agent in Charge, New 
                      Orleans Field Office, F.B.I.

    Good afternoon Mr. Chairman and Members of the Committee. An very 
pleased to appear before you today to discuss the FBI's role in the 
security at the New Orleans seaport. The New Orleans division of the 
FBI is only one of several different law enforcement and military 
agencies which has a connection to the New Orleans seaport. We have an 
outstanding working relationship with our law enforcement partners, 
whether it be a federal, state, or local agency. We also have an 
excellent working relationship with the United States Coast Guard and 
the Louisiana National Guard. Through this working relationship, all 
matters of investigative interest are quickly coordinated between the 
various agencies to ensure the most effective response is provided.
    The coordination among the various law enforcement agencies and 
military units is enhanced by the FBI sponsored Louisiana Joint 
Terrorism Task Force (LAJTTF), the united states attorney's office task 
force on terrorism, and the New Orleans Harbor Police Anti-terrorism 
Unit. In the near future, the Harbor Police will assign an officer full 
time to the LAJTTF. All members of the LAJTTF have work space assigned 
to them in our FBI office and report to work there everyday. They have 
the required background checks and clearances which make them an asset 
in the fight against terrorism. Through this task force effort, all 
terrorism investigations and issues are addressed in a coordinated 
manner. Nearly all members of the LAJTTF have received formal terrorism 
training either through the FBI or their respective agencies.
    To demonstrate the effective coordination between all agencies, I 
would like to note that within two hours of the September 11, 2001 
terrorist attack on the united states, a joint operations center (JOC) 
was established in the New Orleans FBI office. The JOC was staffed by 
representatives of over twenty agencies which were either part of the 
LAJTTF, or through some other established working relationship they had 
with the FBI. The JOC coordinated the investigative activities of 
nearly 1300 leads over the next thirty days. Many of these leads had 
some impact on the New Orleans seaport. Thanks to the effort of all the 
investigative agencies, these leads were cleared to their logical 
conclusion.
    The FBI is keenly aware of the concerns of law enforcement officers 
regarding their need for information to help them do their jobs safely, 
efficiently and completely. FBI Director, Robert S. Mueller recently 
demonstrated his commitment to this effort by establishing a new 
investigative coordination division within the FBI. This new division 
includes an office of law enforcement coordination which will be 
responsible for improving information sharing with state and local law 
enforcement and public safety agencies. This is an area in which the 
FBI can and must do a better job. I share Director Mueller's belief 
that no one agency or entity at any level is strong enough to tackle 
the myriad challenges that face law enforcement. We must work together. 
Law enforcement is, quite simply, only as good as its 
relationships.This concludes my prepared remarks. I would like to 
respond to any questions you may have.

    Senator Breaux. Mr. Kaiser, I thank you very much.
    Captain Grubbs.

            STATEMENT OF CAPTAIN DOUGLAS J. GRUBBS, 
               CRESCENT RIVER PILOTS ASSOCIATION

    Captain Grubbs. Senator Breaux, Congressman Vitter----
    Senator Breaux. Captain, just avoid touching the 
microphone.
    Captain Grubbs. Senator Breaux and Congressman Vitter, good 
afternoon.
    Senator Breaux. Turn it a little and face it toward you, 
but just do not hold it.
    Captain Grubbs. Senator Breaux, you were right. New 
Orleans's VTS is much better.
    I am Douglas Grubbs of the Crescent River Port Pilots 
Association in New Orleans and head of the pilots' Vessel 
Traffic System program. I also sit on the Lower Mississippi 
Safety Advisory Committee and serve as the official liaison 
between the pilots and the U.S. Congress.
    Since September the 11, everyone involved in maritime 
commerce along the Mississippi River has been on a heightened 
alert, watching for suspicious activity or indeed anything out 
of the ordinary. This heightened state of watchfulness must 
translate into what Admiral Loy has termed a ``new normalcy.'' 
We cannot afford to drift into vulnerable complacency. This 
means that emergency measures must become standard procedure; 
that complete, accurate, real-time situational information must 
be readily available to both operators and law enforcement 
personnel; and that maritime personnel learn how to identify 
and respond to that potential threat quickly and efficiently.
    My purpose here today is to discuss how the current system 
of vessel pilotage can be used to enhance our maritime security 
and how Louisiana state pilots have and will continue to work 
hand in hand with the Coast Guard and other state and federal 
law enforcement agencies to safeguard the property, welfare, 
and the lives of the people of Louisiana.
    Effective port security requires a true partnership amongst 
all entities, both public and private, who utilize and serve 
this waterway. The Coast Guard and the pilots embarked in this 
public and private partnership long before September the 11, 
working together since 1990 to develop an AIS-based VTS system 
here in New Orleans. Once fully developed, this system will 
serve as a model for other ports around the nation and, in 
fact, the world.
    The combined ports of the Lower Mississippi River represent 
the largest port complex in the world. Each year there are 
about 400,000 total vessel movements along this 264 mile 
stretch of commercial waterway extending from the Gulf of 
Mexico to Baton Rouge, Louisiana. Approximately 37,000 of those 
movements are deep-draft vessels carrying grain, coal, steel, 
petrochemicals, and a host of other commodities and products 
vital to both the domestic and international economies.
    A terrorist attack along the Mississippi River would not 
only endanger significant urban population centers and 
commercial property, but it would also have a far reaching and 
devastating impact around the world. The region's vulnerability 
and importance would make it a very attractive target to anyone 
seeking maximum impact from a single destructive act. Pilots 
take this threat seriously and personally. We want to do 
everything we can and cooperate in every way possible to ensure 
that nothing like September 11 happens here.
    A pilot onboard a vessel has immediate, first-hand 
knowledge of the vessel's situation and is in the best possible 
position to notice a potential problem while there is still 
time to avert disaster. The Coast Guard relies upon pilots to 
provide accurate and timely information about vessels and their 
immediate surroundings. Today, pilots accomplish this task 
using visual contact, radar, and VHF radios.
    As you know, radar cannot see around points and bends and 
VHF radios are prone to intermodulation interference. While 
pilots are currently in the best position to relay this 
information, they cannot afford to be distracted from their 
immediate task, which often means navigating a heavily laden 
vessel carrying hazardous cargo through congested stretches of 
river with tricky currents and weather conditions. These 
factors have and will continue to contribute greatly to both 
pilots' and the Coast Guard's ability to maintain a careful and 
protective watch over this critical stretch of waterway: 
additional manpower, education, and enhanced technology.
    After September 11, the captain of the Port instituted a 
sea marshal program in which all arriving vessels are screened 
through a high-interest vessel matrix. A team of armed sea 
marshals boards each vessel, which by virtue of its cargo, 
country of origin, or other factor, is deemed to merit special 
attention. The sea marshals are specially trained Coast Guard 
reservists who can respond immediately to potential threats.
    During the month of Ramadan, these sea marshals rode high-
interest vessels all the way from the sea buoy to Baton Rouge. 
Since then, the marshals have concentrated on the vessels in 
the New Orleans Harbor. The pilots have worked closely with the 
Coast Guard around the clock to facilitate the sea marshal 
program by providing logistical support, housing, and 
transportation. The Crescent River Port Pilots have also made 
their extensive, comprehensive vessel database available to the 
Vessel Traffic Center to facilitate cross-referencing vessel 
movements.
    River pilots have extensive expertise and experience 
piloting vessels up and down this river, but we are not 
terrorism experts, military tacticians, psychologists, or law 
enforcement officers. In order to truly identify suspicious 
activity, we need to know what to look for. We also need to 
have a strategic plan in place that tells us how to respond 
should a threat arise. Louisiana State pilots are very 
concerned with education and have implemented one of the most 
extensive continuing education programs in the country. We are 
now working with the Louisiana State Police and the Coast Guard 
to develop a pilot anti-terrorism course which will be 
incorporated into our already existing continuing education 
programs.
    Education and additional manpower both rely upon human 
observation and ability. In the best of all possible worlds, 
critical situational information would be gathered and 
disseminated automatically in real-time, reducing the 
possibility of human error and mechanical limitations. That is 
precisely the purpose of the AIS-based VTS system under 
development here in New Orleans. This satellite-based 
technology will be able to see around points and bends in all 
weather and will use its own private FCC-assigned frequencies, 
assigned to be far less subject to interference.
    With minimal user input, this system will provide real-
time, accurate vessel information, including the ship's name, 
the pilot's name, the ship's location, speed, heading, cargo, 
etc., in both ship-to-ship and ship-to-shore mode to other 
vessels, as well as to the Vessel Traffic Center and even Coast 
Guard headquarters in Washington, D.C. In this way, both 
operators and law enforcement officials will have real-time 
access to all pertinent information regarding hazardous cargo 
moving along the Lower Mississippi River.
    This AIS technology will have an immediate impact on the 
Coast Guard's ability to identify and track hazardous cargo 
moving through the ports of the Lower Mississippi River. The 
infrastructure is in place. The public and private partnership 
between pilots and the Coast Guard has been tested, and it 
works. The VTS is operational in its beginning stages, and the 
AIS technology is ready to go. Once approved and budgeted, the 
100 AIS transponders can be providing greater security to the 
Lower Mississippi River.
    I urge you to lend your support to the efforts of the 
United States Coast Guard and the ports of the Lower 
Mississippi River to provide the resources and technology to 
make this river safe and secure.
    [The prepared statement of Captain Grubbs follows:]

           Prepared Statement of Captain Douglas J. Grubbs, 
                   Crescent River Pilots Association

    Good afternoon Senator Breaux and Members of the Committee. I am 
Captain Douglas Grubbs of the Crescent River Port Pilots Association in 
New Orleans and head of the pilots' Vessel Traffic System program. I 
also sit on the Lower Mississippi Safety Advisory Committee and serve 
as the official liaison between the Crescent Pilots' Association and 
the United States Congress.
    Since September 11, everyone involved in maritime commerce along 
the Lower Mississippi River has been on heightened alert--watching for 
suspicious activity, or indeed anything out of the ordinary. This 
heightened state of watchfulness must translate into what Admiral Loy 
has termed a ``new normalcy.`` We cannot afford to drift again into 
vulnerable complacency. This means that emergency measures must become 
standard operating procedure, that complete, accurate, real-time 
situational information must be readily available to both operators and 
law enforcement personnel, and that maritime personnel learn how to 
identify and respond to potential threats quickly and efficiently.
    My purpose here today is to discuss how the current system of 
vessel pilotage can be used to enhance our maritime security and how 
Louisiana State pilots have and will continue to work hand-in-hand with 
Coast Guard and other state and federal law enforcement agencies to 
safeguard the property, welfare and lives of the people of Louisiana. 
Effective port security requires a true partnership among all the 
entities, both public and private who utilize and serve this waterway. 
The Coast Guard and the pilots embarked upon this public/private 
partnership long before September 11, working together since 1990 to 
develop an AIS-based VTS system here in New Orleans. Once fully 
developed, this system will serve as a model for other ports around the 
nation, and in fact, the world.
    The combined ports of the Lower Mississippi River represent the 
largest port complex in the world. Each year there are about 400,000 
total vessel movements along this 264 mile stretch of commercial 
waterway extending from the Gulf of Mexico to Baton Rouge. 
Approximately 37,000 of those movements are deep draft vessels carrying 
grain, coal, steel, petrochemicals and a host of other commodities and 
products vital to both the domestic and international economies. A 
terrorist attack along the Lower Mississippi River would not only 
endanger significant urban population centers and commercial property, 
it would also have far reaching and devastating impact around the 
world. The region's vulnerability and importance could make it a very 
attractive target to anyone seeking maximum impact from a single 
destructive act.
    Pilots take this threat seriously and personally. We want to do 
everything we can, and cooperate in every way possible to insure that 
nothing like September 11 happens here.
    The pilot aboard a vessel has immediate, first-hand knowledge of 
the vessel's situation and is in the best possible position to notice a 
potential problem while there is still time to avert disaster. The 
Coast Guard relies upon pilots to provide accurate and timely 
information about vessels and their immediate surroundings. Today, 
pilots accomplish this task using visual contact, radar and VHF radios. 
As you know, radar cannot see around points and bends and VHF radios 
are prone to intermodulation interference. While pilots are currently 
in the best position to relay this information, they cannot afford to 
be distracted from their immediate task--which often means navigating a 
heavily laden vessel carrying hazardous cargo through congested 
stretches of river with tricky currents and weather conditions.
    Three factors have and will continue to contribute greatly to both 
the pilots' and the Coast Guard's ability to maintain a careful and 
protective watch over this critical stretch of waterway: additional 
manpower, education and enhanced technology.
    After September 11, the Captain of the Port instituted a sea 
marshal program in which all arriving vessels are screened through a 
High Interest Vessel matrix. A team of armed sea marshals boards each 
vessel which, by virtue of its cargo, country of origin or other 
factor, is deemed to merit special attention. The sea marshals are 
specially trained Coast Guard reservists who can respond immediately to 
potential threats. During the month of Ramadan, these sea marshals rode 
High Interest Vessels all the way from the sea buoy to Baton Rouge. 
Since then, the marshals have concentrated on vessels in the New 
Orleans harbor.
    The pilots have worked closely with the Coast Guard around-the-
clock to facilitate the sea marshal program by providing logistical 
support, housing and transportation. The Crescent River Port Pilots 
have also made their extensive and comprehensive vessel database 
available to the Vessel Traffic Center to facilitate cross referencing 
vessel movements.
    River pilots have extensive expertise and experience piloting 
vessels up and down this river, but we are not terrorism experts, 
military tacticians, psychologists or law enforcement officers. In 
order to identify truly suspicious activity, we need to know what to 
look for. We also need to have a strategic plan in place that tells us 
how to respond should a threat arise. Louisiana state pilots are very 
concerned with education and have implemented one of the most extensive 
continuing education programs in the country. Now we are working with 
the Louisiana State Police and the Coast Guard to develop a Pilot Anti-
Terrorism course which will be incorporated into our already existing 
continuing education program.
    Education and additional manpower both rely upon human observation 
and ability. In the best of all possible worlds, critical situational 
information would be gathered and disseminated automatically, in real-
time, reducing the possibility of human error and mechanical 
limitations. That is precisely the purpose of the AIS-based VTS system 
under development here in New Orleans. This satellite-based technology 
will be able to see around points and bends in all weather, and will 
use it's own private FCC assigned frequencies thus being subject to far 
less interference. With minimal user input, this system will provide 
real-time, accurate vessel information, including the vessel's name, 
the pilot's name, ship's location, speed, heading, cargo, etc., in both 
ship-to-ship and ship-to-shore mode to other vessels as well as to the 
Vessel Traffic Center and even Coast Guard headquarters in Washington, 
D.C. In this way both operators and law enforcement officials will have 
real-time access to all pertinent information regarding hazardous cargo 
moving along the Lower Mississippi River.
    This AIS technology will have an immediate impact on the Coast 
Guard's ability to identify and track hazardous cargo moving throughout 
the ports of the lower Mississippi River. The infrastructure is in 
place. The public/private partnership between pilots and the Coast 
Guard has been tested and it works. The VTC is operational in it's 
beginning stages, and the AIS technology is ready to go. Once approved 
and budgeted, 100 AIS transponders can be providing greater security to 
the Lower Mississippi River within 90 days.
    I urge you to lend your support to the efforts of the United States 
Coast Guard and the ports of the Lower Mississippi River to provide the 
resources and technology to make this River safe and secure.

    Senator Breaux. Captain, thank you very much.
    Mr. Channing Hayden.

                 STATEMENT OF CHANNING HAYDEN, 
         PRESIDENT, STEAMSHIP ASSOCIATION OF LOUISIANA

    Mr. Hayden. Good afternoon Mr. Chairman, Mr. Vitter. I am 
Channing Hayden, President of the Steamship Association of 
Louisiana. Our organization represents steamship agents, 
owners, and operators in all of Louisiana's major deep-draft 
ports. We appreciate the opportunity to appear before the 
Subcommittee and comment on seaport security, an issue of 
national significance and concern.
    My written testimony, which I will summarize this 
afternoon, covers the following points:
    (1) Everybody must talk the same language. For effective 
coordination, the Federal Government must set standards to 
ensure seamless communications between law enforcement agencies 
and between the agencies and their commercial partners. It is 
vital that law enforcement and commercial equipment, radios, 
programs, databases, et cetera, talk the same language. 
Supplies of information--that is, commercial operators--should 
only be required to submit data once to a central 
submissionsite on a standard form, and it should be usable by 
all agencies for both security and commercial purposes. 
Whenever possible, current reporting procedures should be used. 
A good example of this is the Coast Guard changing its 24-hour 
notice of arrival requirement to 96 hours. The system was in 
place, and everyone involved knew what to do because they had 
been doing it for years. With a little tweaking, the new 
requirement was implemented almost without a hitch.
    For effective coordination, we must minimize breakdowns in 
communications. To do so, there must be a way to prove that the 
data was timely submitted. We need the equivalent, if you will, 
of a fax confirmation for all electronic data input. The 
federal, state, and local law enforcement coordination should 
aim for a McDonald's-like consistency in interpretation and 
enforcement throughout the country. The only differences 
allowed should be those caused by differences in the commercial 
or physical situation of a given port. This approach allows law 
enforcement's commercial partners to put company-wide 
procedures in place and make their internal processes efficient 
while supporting the security efforts.
    (2) Expand the coordination loop. We respectfully suggest 
that coordination should be expanded to include law 
enforcement's commercial partners in seaport security. The 
following groups must definitely be included in the 
coordination efforts: port authorities; freight forwarders; 
carriers; steamship agents; terminal operators; pilots; trade 
associations representing these groups, such as AAPA; other 
commercial interests, such as trucking, railroad, barges; and 
other government agencies, such as FMC, MARAD.
    These groups will provide some of the basic intelligence on 
which law enforcement will rely. They will also provide 
practical answers to seaport security issues and ways of 
minimally impacting the import and export of cargo. Keeping 
commercial entities in the loop minimizes the disruption that 
will be inevitably required if their expertise has not been 
considered in the initial decisionmaking process.
    Because of the important role of the commercial 
infrastructure in security, it must be kept in place. 
Legislators and regulators must provide for steamship agents, 
freight forwarders, port authorities, carriers, and other 
commercial partners to offset their legitimate increased 
security costs. There should be no unfunded mandates placed on 
state, local, or commercial interests. No legislation or 
regulation should make commercial operators the first line of 
defense against terrorism. However, legislators and regulators 
may improve the quality of commercial operators by verifying 
their credentials and requiring individual licenses, bonds, or 
both.
    (3) Rely on the people, not on paperwork. Increased 
security will only be achieved through sufficient federal, 
state, and local government, and commercial personnel, not 
through information gathering and reporting. In the past, 
Congress has given law enforcement agents more work to do with 
less people and resources with which to do it. We must reverse 
this trend. We must stop dismantling Coast Guard, Customs, and 
the other law enforcement agencies. The personnel strength of 
federal, state, and local law enforcement must be increased 
through increased funding. It is this view that causes members 
of our industry who have reviewed S. 1214 to believe that it is 
not adequately funded, and some would say woefully so.
    Let me quickly add that the Coast Guard, Customs, and all 
the other law enforcement agencies are doing their very best 
with the people and funds that they have available. They could 
do much more if they were given the resources needed to do the 
job right. We cannot be halfhearted, uncommitted, or 
underfunded in seaport security as we have been with drug 
interdiction. As I understand the statistics, we stop about 5 
percent of the illegal drugs entering the United States. We 
must do a much better job with terrorism.
    (4) Focus on imports. Many in our industry believe that our 
initial focus should be on the coordination of law 
enforcement's efforts to prevent security threats of import 
cargo. The confidential specifics in this regard should come 
from steamship agents, freight forwarders, carriers, and other 
entities immediately involved with the import/export process.
    One of the U.S. drug interdiction effort that has worked 
well is the super carrier initiative which provides incentives 
for vessel owners and operators to have active programs that 
discourage drug smuggling aboard their vessels. Many believe a 
similar program that discourages the use of vessels or their 
cargos as terrorist weapons should be put in place. A super 
port program, similar to the super carrier program, that 
encourages foreign ports to foster U.S. security interests 
should also be considered.
    I would like to divert from my written comments, Mr. 
Chairman, just to comment on two things from the last panel. 
One, I would like to say that to the best of my knowledge the 
technology is not available to electronically transmit 
manifests from vessels at this time. Based on some of the 
discussion we heard, that might not be necessary.
    The other comment I would like to make applies to the 
transponders, the VTS transponders. We believe and have always 
believed that all vessels in the VTS area all the way down to 
the smallest recreational vessels should carry a transponder. I 
think given the current situation that would be even more 
important. This would become the first cut on looking at what a 
suspicious small vessel might be, one that doesn't have a 
transponder.
    With those additional remarks, Mr. Chairman, that concludes 
my testimony, and I will be happy to answer any questions.
    [The prepared statement of Mr. Hayden follows:]

           Prepared Statement of Channing Hayden, President, 
                   Steamship Association of Louisiana

    Good afternoon, Mr. Chairman.
    My name is Channing Hayden. I am president of the Steamship 
Association of Louisiana. Our organization represents steamship agents, 
owners and operators in all of Louisiana's major deep-draft ports. We 
appreciate the opportunity to appear before the Subcommittee on the 
matter of seaport security, an issue of national significance and 
concern. As this Hearing focuses on the coordination of federal, state 
and local law enforcement in providing seaport security, my testimony 
covers the following points:

        Everyone Must Talk the Same Language
        Expand the Coordination Loop
        Rely on People, Not Paperwork
        Focus on Imports

Everyone Must Talk the Same Language
    While this point is elementary, it is too important to overlook. It 
cannot be stressed enough that effective law enforcement coordination 
means that all communications equipment, radios and the frequencies on 
which they operate, computers, programs, databases, etc., both 
government and commercial, must speak the same language--that is be 
able to communicate with each other. Many think that in this age of 
electronic wizardry, we have seamless communications. Usually, that is 
only true if everyone uses the same equipment, which does not often 
happen. For effective coordination, the federal government must set 
standards to insure seamless communications.
    This requirement applies to law enforcement's commercial partners 
as well. Commercial systems and law enforcement systems must be able to 
communicate with each other. The basic information on which seaport 
security depends comes from law enforcement's commercial partners. 
Thus, it is vital that law enforcement and commercial equipment, 
programs, etc., talk the same language.
    Not only must basic communications be possible, it must be 
efficient. Suppliers of information (commercial operators) should only 
be required to submit data once, to a central submission site, on a 
standard submission form, and should be usable for both security and 
commercial purposes. For example, if steamship agents report vessel 
arrivals, everyone who needs vessel arrival information, including, for 
example, port authorities, should have access to the data and should be 
required to obtain the information from the central source. The same is 
true with freight forwarders providing information on shippers, 
receivers and cargo.
    Whenever possible, current reporting procedures should be used. 
These are tested and refined procedures that have been in place, in 
some cases, for years. A good example is the Coast Guard changing its 
24-hour Notice of Arrival requirement to 96 hours. The system was in 
place; and everyone involved knew what to do because they had been 
doing it for years. So, with a little tweaking, a new reporting system 
was implemented almost without a hitch.
    For effective coordination, we must insure that breakdowns in 
communications are held to a minimum. To do so, we must require the 
electronic submission of data to be verifiable. Why? Because, 
inevitably, there will be disputes over electronic data submission. 
Agencies will fine those accused of not submitting timely information. 
There must be a way to prove that the data was timely submitted. We 
need the e-equivalent of a fax confirmation for all electronic data 
input.
    Finally, when legislation passes or regulations issue, federal, 
state and local law enforcement coordination should aim for a 
McDonald's-like consistency in interpretation and enforcement 
throughout the country. The only differences allowed should be those 
that account for differences in the commercial or physical situation of 
a given port. This approach allows law enforcement's commercial 
partners, some of whom are regional or national organizations, to put 
company-wide procedures in place that make their internal processes 
efficient while supporting the security effort. This does not happen 
now. As noted above, the change to a 96- hour vessel Notice of Arrival 
went smoothly. However, I have received reports from members that the 
procedures and requirements placed on vessels based on this information 
varies from port to port depending on local interpretation of the 
national regulations.

Expand the Coordination Loop
    We respectfully suggest that coordination should be expanded to 
include law enforcement's commercial partners in seaport security. The 
following groups must defiantly be included in the coordination effort.

        1. Port Authorities
        2. Freight Forwarders
        3. Carriers
        4. Steamship Agents
        5. Terminal Operators
        6. Pilots
        7. Trade Associations representing these groups, such as AAPA, 
        etc.
        8. Other commercial interests, such as trucking, railroad, 
        barges, etc.
        9. Other government agencies, such as FMC, MARAD, etc.

    These groups will provide some of the basic intelligence on which 
law enforcement will rely. They will also provide practical answers to 
seaport security issues in ways that minimally impact the import and 
export of cargo. For example, some are suggesting the elimination of 
``in bond'' movements of cargo from port of entry to inland points. Any 
freight forwarder or carrier will immediately explain how eliminating 
``in bond'' cargo movements will quickly and completely congest our 
seaports. Keeping commercial entities in the coordination loop 
minimizes the corrections that will inevitably be required if their 
expertise is not considered in the initial decision-making process.
    Because of the important role the commercial infrastructure will 
play in the security effort, it must be kept in place. In doing so, 
legislators and regulators must provide for steamship agents, freight 
forwarders, port authorities and other commercial partners to offset 
their legitimate, increased security costs. In that regard, at a 
minimum, there should be no unfunded mandates placed on state, local or 
commercial interests by legislation or regulation.
    Further, no legislation or regulation should make commercial 
operators the first line of defense against terrorism. These entities 
do not have the expertise or training to do so. However, as vessel 
pilots act as eyes and ears of law enforcement on foreign vessels in 
U.S. ports, steamship agents, freight forwarders, terminal operators, 
etc., should be considered law enforcement's eyes and ears to monitor 
the import/export system. Legislators and regulators may consider 
improving the quality of commercial operators by verifying their 
credentials and requiring individual licenses, bonds or both.

Rely on People, not Paperwork
    Increased security will only be achieved through devoting 
sufficient federal, state and local government and commercial personnel 
to the effort, not through information gathering and reporting. In the 
past, Congress has given law enforcement agencies more work to do, but 
less people and resources with which to do it. As a result, the 
agencies have shifted more of their responsibilities on to their 
commercial partners. For example, the lack of Customs' personnel has 
forced Customs to require that steamship agents keep the import 
documentation that Customs kept in the past. Now Customs randomly 
audits and fines steamship agent for not maintaining this documentation 
properly. This is certainly not the type of process that will provide 
increased seaport security.
    In addition, the ``do more with less'' mentality has forced 
agencies to make their operations more efficient at the expense of 
commercial operations. For example, the lack of manpower and equipment 
has caused container inspections to be moved from the wharf to 
centralized locations, a more expensive system for shippers. We must 
reverse the trend of expecting our first line security team, our law 
enforcement agencies, to do more with less. We must stop disassembling 
our law enforcement agencies such as the Coast Guard, Customs, etc. We 
must take a system-wide view, making sure the entire process is 
efficient, not just one agency's part of it. The personnel strength of 
federal, state and local law enforcement must be increased through 
increased funding. It is this view that causes members of our industry 
who have reviewed S. 1214 to believe it is not adequately funded, and 
some would say woefully so.
    We cannot rely on electronic data transfer and risk analysis to 
provide seaport security. In some cases, for example manifests, 
electronic data transfer capabilities do not exist. We can only achieve 
effective seaport security if enough people are devoted to it. Let me 
quickly add that the Coast Guard, Customs and other agencies are doing 
their very best with the people and funds they have available. They 
could do more, much more, if given the resources needed to do the job 
right. My worst fear as a U.S. citizen is that our country's leadership 
will lose its security focus as time heals the grievous wounds of the 
September 11 attacks and return to our normal political bickering. We 
cannot be as half-hearted, uncommitted or underfunded in seaport 
security, or any homeland security issue, as we have been with drug 
interdiction. As I understand the statistics, we stop approximately 5 
percent of the illegal drugs entering the United States. We must do a 
much better job against terrorism.

Focus on Imports
    Preventing the export of material or technology that defeats our 
security efforts is important. However, many in our industry believe 
that the initial focus should be on the coordination of law 
enforcement's efforts to prevent or eliminate the security threats of 
import cargo. Specifics in this regard should come from steamship 
agents, freight forwarders, carriers and other entities intimately 
involved with the import/export process. Of course, this information 
should be gathered on a confidential basis.
    While I have been less than complimentary to the U.S. drug 
interdiction efforts, one area of the program has worked well. The 
``Super Carrier'' initiative provides incentives for vessel owners and 
operators to have active programs that discourage drug smuggling aboard 
their vessels. There are those in our industry who believe a similar 
program that discourages the use of vessels or their cargoes as 
terrorist weapons should be put in place. A ``Super Port'' program, 
similar to the ``Super Carrier'' program, for foreign ports that 
fosters U.S. security interests should also be considered.
    Attached is an article, written by Mr. Theodore Prince, from the 
January American Shipper magazine. The article discusses seaport 
security issues and may be of interest to this Subcommittee. Mr. 
Chairman, that concludes my testimony. I will be happy to answer any 
questions.
    Attachment
                                 ______
                                 
     Printed in the January 2002 issue of American Shipper magazine
                            Theodore Prince
                             The road ahead
    Predicting future events is impossible. But in the aftermath of 
September 11, we must at least attempt to define the emerging 
priorities the transportation industry faces in our changed world.
    Even before September 11, the economy was troublesome. 
Transportation carriers traditionally have been leading indicators of 
economic times. They are usually the first to feel any economic 
impact--good or bad. The economy shrank at a revised 1.1-percent annual 
rate in the third quarter--the biggest contraction in gross domestic 
product in 10 years. Many hope for a short and mild recession. 
Companies have been aggressively cutting capacity, jobs, inventory and 
expenses, while the government rapidly applies both monetary policy (10 
interest rate cuts by the Fed) and fiscal policy ($70 billion in tax 
cuts already approved for 2002 with further stimulus initiatives 
likely).
    The international economy is fraught with uncertainty. The U.S. 
economy's slowdown has reverberated throughout the world. The eurozone 
seems to tinker on recession. Economic stimulus by the euro's central 
bank has not been forthcoming because inflation is not perceived to be 
a threat. Japan is experiencing its fourth recession in 10 years, which 
will probably force postponement of financial reforms promised by Prime 
Minister Junichiro Koizumi--and trigger further problems later. Taiwan 
and Singapore have followed the United States into recession and South 
Korea is barely hanging on to recovery. The only growth in Asia is 
occurring in China. Strengthened by joining the WTO, China is expected 
to see 7 percent growth this year. It remains to be seen whether U.S. 
recovery will resuscitate Asia's growth--or simply accelerate that of 
China's.
    Oil prices have brought transportation carriers some unexpected 
good luck. After an initial price spike, oil has drastically decreased 
in price, as OPEC has been unable to enforce production cutbacks. Some 
economists, however, fear that this may be signaling impending 
deflation. Additionally, retail price cuts and 0-percent financing are 
harbingers of deflation. With industrial capacity at only 75 percent, 
the long-term impact of overcapacity could be severe. Many 
transportation carriers are struggling with the same problem of 
overcapacity.
    The future of inventory management also worries our industry. Over 
the past 20 years, the logistics industry grew out of the changing 
nexus between traditional transportation providers and their customers. 
Just-in-time became a standard goal for almost all manufacturing 
industries. A manufacturer had to be willing to run a factory with no 
spare inventory, a practice requiring complete faith that parts would 
be delivered promptly.
    Transportation deregulation allowed carriers and customers to 
customize their contracted services. Because JIT was meant to eliminate 
inventory, customers no longer needed their own warehouses. Third-party 
logistics companies took over inventory management and related tasks. 
Supply chain management entered the general mainstream of business. 
Build-to-order was the inevitable successor and concepts such as ``the 
Dell model'' became corporate goals. Customer response was almost 
immediate and little working capital was needed for work in progress. 
Loss, damage and risk of obsolescence also decreased. The profit 
improvement opportunity was significant.
    The events of September 11 caused many supply chains to unwind. 
(e.g., many automotive plants shut down due to lack of parts.) It 
remains to be seen whether companies will develop new inventory 
strategies. The reintroduction of buffer stocks represents a 
significant change in practice, but companies may consider it necessary 
in today's uncertain world. At least for the present, the low interest 
rates established by the Fed should alleviate some increased carrying 
costs.
    The impact of inventory strategies to transportation companies will 
come as customers plan for the coming year. Replenishment frequency 
will have an impact on shipment size and optimal transportation 
provider. Many wonder whether this will cause traffic to be rerouted 
between modes (i.e., air to surface, less-than-truckload to truckload, 
etc.) Air cargo will certainly be affected if passenger flight capacity 
is withheld for security reasons. And the trucking industry may also 
experience problems if they are unable to attract and retain sufficient 
drivers to accommodate the slower transits--and the increased security 
scrutiny.
    Transportation will also be affected as companies review the 
sourcing of components and consider alternatives for those that come 
from politically sensitive areas--or have complex transit. 
Documentation and security will face enhanced scrutiny. International 
transit will be especially sensitive to regulatory compliance. Shoddy 
paperwork will cause delivery problems. Shipments to and from certain 
areas may become so difficult to handle that carriers may price 
themselves out of the business.
    All of these factors are probably good news for information 
technology providers. Planning and execution tools are invaluable not 
only for establishing a plan but also for changing the plan quickly if 
necessary.
    Many external factors determine the functionality of the 
transportation industry. Security is clearly a major concern. The 
current political climate in Washington is such that many legislators 
are clamoring for transportation security legislation--especially acts 
with their name. Yet, some of the legislation being drafted does not 
seem to reflect an understanding of how transportation truly operates. 
Pending legislation may actually impact availability of truck drivers, 
drastically curtail hazardous material movement and repeal in-bond 
movement of import cargo.
    What about insurance specifically? Even with increased rates, some 
parties have found themselves unable to obtain insurance. The trucking 
industry has been particularly vulnerable to this problem. Some 
carriers have greatly increased their deductibles in order to afford 
premiums. But one or two accidents could bankrupt them. Shipping 
companies and airlines must also face war risk insurance. 
Infrastructure providers, such as ports and airports, must also 
confront this problem. European airports have repeatedly warned that 
they could be forced to close if governments don't assist them with 
their coverage.
    Our preparation for problems will largely determine our success. 
Two weeks before September 11, the Intermodal Association of North 
America discussed in a seminar the preparation for--and response to--
emergency situations. Most conversation centered on local trauma (i.e., 
a fire) or slowly developing weather (i.e., a hurricane.) It is now 
clear that, like all of us, the transportation industry must be much 
more thoughtful about contingency plans on a larger scope and scale--
and response in a shorter timeframe than we have usually thought in.
    The world has changed and our industry will change with it.
    Theodore Prince is senior vice president marketing and sales for 
Optimization Alternatives Ltd. Inc.

    Senator Breaux. Thank you, Mr. Hayden, and thank all of the 
members of the panel for their presentation.
    Gary, or anybody can comment on this, if the federal 
statute, which I take it now American Port Authorities 
support--before, in the summer, I think the ports had a 
position that was not in support of the legislation. I take it 
now they have become supportive of the concept of the federal 
statute.
    Mr. LaGrange. Absolutely correct.
    Senator Breaux. If the legislation were in effect today, 
who would be in charge of putting together a comprehensive 
security plan for the Port of New Orleans? If the legislation 
today said we have to have a comprehensive security plan, 
somebody is going to go out there and put it together. Where 
are we going to start? Would it be the Coast Guard? Who is 
going to start doing it? Do we have a concept on how we put 
together that plan?
    Mr. LaGrange. I will share in the answer, if you do not 
mind, with the Chief. But absolutely, I think the Coast Guard--
it would be incumbent upon the Coast Guard hopefully to take 
the lead, but it would be a very coordinated type of effort 
that would have to happen between the local entities and the 
Coast Guard specifically. We would hope that they would be the 
point focus on that.
    Senator Breaux. I am wondering if we might not have to 
legislatively say who is in charge to do these plans, Or at 
least spell out a comprehensive plan under the coordination of 
the United States Coast Guard, maybe give some instruction with 
directions about how the plan is to be implemented, because I 
can see that with all the ports that we have got--how many 
major ports have we got in the country?
    Mr. LaGrange. One hundred and fifty.
    Senator Breaux. One hundred and fifty ports at least----
    Mr. LaGrange. In the United States, yes.
    Senator Breaux.--and different groups putting together 
different plans. I take it, if we had one coordinating agency 
perhaps it would move the plans in the right direction.
    I am interested, Chief Hecker, in Fort Everglades. They did 
not have a Harbor Police. They had a sheriff's department 
running around the port with a couple of center-console 
vessels, which I did not think would be able to stop anything, 
except maybe a drunk and a go-fast boat. We do not have that 
here (laughter). Who does the Harbor Police work for?
    Chief Hecker. For the Port of New Orleans.
    Senator Breaux. So the Port has the responsibility for 
funding the Harbor Police?
    Chief Hecker. That is correct.
    Senator Breaux. And how large is the Harbor Police here?
    Chief Hecker. There are 59 police officers. What is unique 
about the Harbor Police is that we, it is a disadvantage to 
depend on private security for the obvious reasons, and as you 
mentioned, when they bring in outside security, even police 
officers, they do not have a vested interest or a strong 
interest in securing the port. Those officers tend to rotate in 
and out, where here you have a designated force, 59 police 
officers, as I mentioned, and 11 firefighters every day 
patrolling the port.
    Senator Breaux. What kind of vessels do you have? Do you 
have some boats that are out there on the water? Is it all 
onshore? Tell me a little more about it.
    Chief Hecker. Yes, sir. We have officers on land that 
patrol and a fleet of Harbor Police vehicles. We utilize 
scooters sometimes. We utilize bicycles sometimes around the 
populated areas such as the cruise terminal and the Riverwalk 
shopping center. Our fire boat is a 95-foot fire boat, 3,600 
horsepower. Fire-fighting equipment can actually--it is an 
automated system where one person can actually fight a fire, a 
wheel house.
    Senator Breaux. The responsibility for an explosion and 
fire on a vessel that is within the harbor, the Port of New 
Orleans, the Harbor Police would be the first to respond?
    Chief Hecker. Well, we would be the first to respond 
because we are one of the only firefighting boats available in 
this area, especially one of that nature. I believe Saint 
Bernard has a smaller fire boat, but when it comes to state-of-
the-art firefighting equipment, our fire boat is far ahead of 
the pack and is probably----
    Senator Breaux. In fact, I think you just donated one of 
the old vessels to Puerto Rico, as I remember. What about 
patrol vessels in the water?
    Chief Hecker. We have one Harbor Police patrol boat. It is 
a 20-foot Boston Whaler. Mainly, what that is used for is to 
maintain clearance in the Industrial Canal. Shrimping tends to 
be real popular in that area, and what happens is it is 
illegal, and the shrimpers will congest the passageway, and the 
cargo ships have a difficult time maneuvering past the shrimp 
boats, who tend to refuse to get out of the way, so our Harbor 
Police boat maintains a presence in that area and keeps that 
passageway clear and also enforces the illegal shrimping laws.
    However, that boat has been used in the Mississippi River. 
Just recently we had a military vessel here that required a 
presence on the riverside, and we used our police patrol boat 
to maintain a security presence on the river as well. Those are 
the two boats that we have currently right now, not to say that 
we could not use additional boats.
    Senator Breaux. I am always concerned about our shrimpers, 
but generally they are not going to be a terrorist threat. The 
greatest fear that I have now is the same thing that happened 
to the U.S.S. Cole when a private vessel that is apparently 
under Coast Guard regulation but is not restricted is just 
pulling right along side a very large vessel. And you know, a 
lot of people like to get as close as they can to a cruise ship 
just to look at it. Pulling along side a cruise ship, not just 
looking at it, but to blow it up, is a potential threat in 
every port of this country that has cruise ships. I am 
concerned that the comprehensive plan needs to address that. I 
am really not satisfied with the Coast Guard's statement that 
there are no restriction zones that are automatically in place 
on a high-interest vessel that comes into this port.
    Mr. LaGrange. We have imposed one around the cruise ships.
    Chief Hecker. Yes, sir. I believe we have, I am not sure of 
the length or amount, but we did impose a security zone around 
a cruise ship when it is at the dock, so we have a security 
zone there.
    Senator Breaux. Is it enforced?
    Chief Hecker. The Coast Guard cutter is usually visible in 
that area. Now, again, our police patrol boat has been 
maintained in the Industrial Canal, so we do not have a second 
boat to utilize there. We generally depend on the Coast Guard 
for enforcement of that body of water.
    Mr. LaGrange. Shortly after 9/11--it does get violated 
occasionally. It is not a hundred-proof. There was a kayaker 
coming down who was leaving the country after 9/11, headed out 
of Dodge, and had a little red box on the front of his kayak. 
As it turned out, it was his lunch and a change of clothing or 
something, but every now and again you will have one that will 
penetrate.
    Senator Breaux. I think it is obvious that in the Port of 
New Orleans there is different traffic here. It is a great deal 
commercial. There are not a lot of recreational boats like they 
have in the Port of Miami or the Port of Everglades where you 
have got literally thousands and thousands of recreational 
boats, some of them yachts, some of them 35's or 45's. You have 
all different sized vessels up and down there that are 
privately operated. Here you have mostly commercially operated 
in this stretch of the Mississippi, so it is a little bit 
different.
    I think that government cut in the Port of Miami, the 
entire government cut is a restricted zone now. When one cruise 
ship is in the port, there are no private vessels in the entire 
government cut, which is the main exit out to the Atlantic 
Ocean for the Port of Miami. Not a single private vessel can 
come into that government cut if there is any single cruise 
ship anywhere in the dock. The concern is preventing private 
vessels from trying to examine a larger vessel. I am not sure 
that would work. I mean, you cannot restrict that portion of 
the river.
    I think that a comprehensive plan is going to have to look 
at creating zones around some of these vessels that are high-
interest vessels that are coming in there. I do not know. We do 
need some more resources.
    I mean, the Coast Guard has a vessel out here. You have got 
one boat. And how many ships have you got coming in? Thousands. 
Those are inadequate resources to address this post-9/11. That 
is why this bill could be very helpful in terms of helping to 
supply additional resources.
    One Boston Whaler is not going to do the job if somebody is 
intent on coming along side one of your ships and doing great 
damage to it. It is not just to your ship, but the harbor. That 
would stop traffic and commerce in the entire middle part of 
the United States of America by sinking one ship. Not to 
mention if it is being sunk under the Greater New Orleans 
Bridge and collapsing the bridge, the economic effect on this 
country would be devastating. The resources I think are going 
to have to be greatly increased in light of 9/11.
    Captain Grubbs. Mr. Chairman, even with the limitations of 
the Mississippi River because of the currents, it has also got 
its benefits. The benefits for security are that if the ship 
industry, the pilots, the Coast Guard, and law enforcement 
agencies got together and dedicated a few anchorages, not the 
entire anchorage, a few slots, with radar control, the VTS, 
cameras, the most vulnerable a ship would be would be anchored 
in the middle of the night by itself with no surveillance. By 
then we would have full VTS surveillance, and a ship along side 
of a dock would meet the requirement of docks so they would 
have camera surveillance outside of the ship.
    Senator Breaux. I agree with that. I mean I do not want to 
have anybody coming along and saying that Senator Breaux and 
Congressman Vitter advocated every fast boat in Louisiana have 
a transponder on it. I am not saying that, but there has got to 
be certain areas and certain sensitive zones. We want to know 
why those boats are out there. Here most of our traffic is 
commercial. Obviously, we have some private boats and yachts 
coming up and down the river, but most of them are already in 
the Gulf or Lake Pontchartrain, and not traversing the 
Mississippi River like they do in some ports around the 
country. I think there has got to be a way. We want to know why 
they are there. If we know who they are and why they are there, 
that eliminates a lot of problems.
    Mr. Hayden. Please remember, though, that while you are 
saying a lot of these small--that we do not have a lot of 
perhaps recreational boats, we do have a lot of small 
commercial boats. Down in Venice there are a lot of small 
boats, a lot of fishing boats, and a lot of offshore boats. It 
is these people who should be--if they have businesses in the 
VTS area, they need to have a transponder. They need to be 
identified. Because if they are not identified, we do not know 
who they are and what they are doing there. And let us face it, 
if somebody is going to show up and try to do some trouble, 
they are going to try to blend into whatever traffic that is 
there, and the traffic that is there is fishing boats, 
shrimping boats, and offshore boats.
    Senator Breaux. Look at the size of the vessel that pulled 
up along side of the U.S.S. Cole Naval vessel. It was a very 
small vessel, and it almost sank it. It killed a large number 
of sailors. The comprehensive plan ought to look at that.
    I tell you, I think that we are going to certainly move on 
federal legislation to require transponders in a much quicker 
fashion on the vessels that are now scheduled to receive them 
already, so you can find out where those vessels are.
    Let us see. I have some other material. The relation, I 
take it, with the Harbor Police and the Coast Guard is a good 
one. Can it be improved? Has there been any difficulties in the 
not sharing of information, or has there been any fight to see 
who is going to do what?
    Chief Hecker. You are correct, sir. It is a very good 
relationship. I think the improvement could perhaps be in the 
equipment, such as radio communications. I do not believe--we 
cannot communicate with them from car to ship except for a 
patrol boat to our police headquarters. The radio system could 
probably be improved.
    To go back to one other thing that you had asked Mr. 
LaGrange, prior to 9/11 we were prepared to follow the 
guidelines of the interagency commission on seaport security 
and establish that committee that you spoke of with the Coast 
Guard being in the lead and for us to play a support role and 
be part of that committee, and establish the guidelines as far 
as seaport security. We have taken the first steps to put that 
committee together.
    Senator Breaux. Is there a restricted access to the Port of 
New Orleans now, and if so, how?
    Chief Hecker. It varies. We are an open port, as you well 
know. We have a flood wall that offers some security, and over 
the past few years we have established four entry points to the 
Uptown facilities. We are in the process of assessing how we 
are allowing vehicles to come in there. Initially, we passed 
out port decals, and anybody who had a port decal we would just 
waive them in. We are taking another look at that to see if we 
want to stop every vehicle coming in and do a more in-depth 
check. There are other areas of the Port that we do not have 
any checkpoints where literally vehicles or pedestrians can 
walk right up to the facilities. We are assessing that as well.
    Senator Breaux. I think that should not take a lot of 
assessment.
    Chief Hecker. Well, what the assessment is how are we going 
to shore it up and how are we going to secure it. Do we assign 
a person there for each driveway? Do we create some type of a 
gate-armed security booth?
    Senator Breaux. Mr. Kaiser, you are the FBI. What kind of 
recommendation would you just offhand have with regard to 
access to a public port like this, knowing that we want to make 
sure people can get in and out of the Port in a relatively 
unrestricted way, but at the same time I do not want and no one 
wants anyone driving into the Port who is not there for a 
legitimate reason? Is it your suggestion that we have 
checkpoints?
    Going into the Port of Fort Everglades, I was met by a 
National Guard person with an M-16, plus the local sheriff's 
deputies, going through a checkpoint before we could get into 
the port. I take it we do not have anything like that right now 
in the Port of New Orleans?
    Mr. Kaiser. One of the things that has been discussed----
    Senator Breaux. A little louder so we can make sure to get 
it on the record.
    Mr. Kaiser. One of the things that has been discussed among 
various law enforcement agencies is possibly a smart card or 
some sort of identification card that would enable people to 
access where you pass the card through it and the gate goes up 
and opens. That would, I think help us achieve that.
    Senator Breaux. I think that with the ships--this was 
really interesting, David. We went on the OCEAN PRINCESS. They 
had a private security concern that has developed a card. And 
every passenger onboard that ship when they walk on gets a 
laminated card. They take their picture, and it is on that 
card. Like what you have there, Gary. When you leave the ship, 
you run it through the little computer, and it shows that you 
are now off the ship and they are waiting for you to get back 
on the ship so the ship can depart. I would suggest that. 
perhaps the idea has been discussed, that people who regularly 
use the port should have some type of identification which is 
with a photo ID.
    I am not certain that we are not moving to a situation in 
this country where we have photo ID's. Everybody has a Social 
Security card. Is there any problem putting your picture on 
your Social Security card? I am not looking for a Big Brother 
type of operation, but I mean, for the purpose of identifying 
people, those types of things I think can be very helpful and 
hopefully can be considered in our overall comprehensive plan.
    Captain Grubbs, on the role of a pilot on a ship, I take it 
has been navigation and safely bringing that ship from one 
point to the next point and not to try and inspect the ship or 
enforce any laws. Give me a little bit of something for the 
record. We now have sea marshals onboard. Is that helpful? Can 
they be doing something that your pilots are not doing? Does it 
matter whether you are captaining your ship carrying hazardous 
material versus captaining a ship that is carrying soybeans?
    Captain Grubbs. For us it is all the same. We pilot every 
ship with the same amount of credibility we pilot small ships 
with hazardous cargo. Soybeans can blow up too. One of the 
biggest explosions we had was with grain dust, so----
    Senator Breaux. Whether it is potentially explosive or not, 
from a navigation standpoint it is the same?
    Captain Grubbs. But what has changed since 9/11 is not what 
you do, not how you pilot the ship, because it is the same way. 
It is what is around you a lot more. It is what is in your 
surroundings. Who is the crew behind your back?
    What bothered most of our pilots was those planes that 
terrorists took over and cut the pilots' throats with a box 
cutter or however they did it. We are not going to go into this 
without knowing fully what is behind us. Most of our ships are 
international crews, most of them are multilingual and 
multinational. It would be easy to put a crew member on, steal 
someone's identity, and stick them in there. I think it would 
be less likely to have a conspiracy amongst the whole crew, but 
it is likely to have one or two members that was planted into 
the crew to do some damage. Like you said, we have big ships 
here, 200,000, 300,000. They could blow the bottom of that ship 
and cripple this entire area by the time you got that ship out 
of the way, or blow the Huey P. Long Bridge with a boxcar, 
bombing a boxcar. Or simply if you had someone coordinating it 
from around Algiers Point at this stage of the river, and 
instead of going hard left, he goes hard right, right into a 
cruise ship with volatile cargo, with a northeast or east wind 
you would kill a good part of New Orleans.
    So these are the things that when we developed this anti-
terrorist force with the Coast Guard to put more restrictions 
on, we just became a lot more aware, we better have a strategic 
plan to try, before the guy cuts your throat with a box cutter, 
to have that plan in action. Sea marshals would make a great 
deal of difference on these HIV vessels. But it is all vessels. 
That ship that hit the shopping center in New Orleans was a 
computer glitch and did an awful lot of damage. If you put 
someone into the crew that wants to do harm to this city, right 
now you could easily do it before that pilot could correct that 
action, turn around and change the rudder and have the captain 
of the ship take over. A lot of this could be done quickly by 
sea marshals, which I think would prevent all of that.
    And some people are going to say, well, when does that ever 
happen? I mean pilot programs, we have an incredible safety 
record. It is like one incident in 1,100, and 70 percent of 
those are engine failures or mechanical failures. When does 
this happen? I mean how many times has a plane been flown into 
the World Trade Center? So it would only take one time on a 
chloride ship or one of these container ships to go hard right 
into a cruise ship and kill a bunch of people. We have to be 
sure to educate ourselves in this area, and that is what pilots 
want to do.
    Senator Breaux. I noticed that the bridge on the Chinese 
registered vessel was not secure in the sense there was pretty 
free access to it. It seemed to me that perhaps some 
consideration can be given on HIV vessels, the high----
    Captain Grubbs. High interest vessels.
    Senator Breaux. High interest vessels, to require some type 
of a secured bridge for the pilots and the sea marshals to work 
in.
    Captain Grubbs. I think that is an excellent point.
    Senator Breaux. It would make it much more difficult if you 
have four or five people on that bridge to take over. A river 
pilot and a sea marshall, you know, all 20 people in the crew 
could come up there and take over and do what you just 
suggested. It seems to me some type of security on the bridge 
may be important while it is in our area of influence.
    Captain Grubbs. When it comes to the navigational aids, 
yes, sir.
    Senator Breaux. Somebody suggested in our Committee in 
Congress about the state river pilots being documented by the 
Coast Guard, which you are not now. Can you comment a little on 
that?
    Captain Grubbs. Oh, we are. Before we ever get to the level 
that we are at, instead of a--it is a state commission, we have 
to have a Coast Guard pilot license. So we have to have that 
before we are ever voted on.
    Senator Breaux. You have a license, but can you document 
it?
    Captain Grubbs. I look at that as being one and the same. 
The federal pilots here, by way of a good relationship, They 
have to have a federal license, the same as we have to pilot 
these ships. We go out of state, unlimited pilots, unlimited 
masters, and the state commission has repass the apprenticeship 
program.
    Senator Breaux. Anything else?
    Mr. Vitter. I just have one followup on the VTS issue, and 
I certainly agree with people's earlier comments that we need 
to accelerate that effort. Captain, you and I had talked a 
month or two ago, and you had some specific ideas about how to 
accelerate that effort with some equipment sitting around being 
unused, and other ways, at least on the local level, to 
dramatically accelerate that effort. I was wondering if you 
could share that with us for the record.
    Captain Grubbs. Sure. The infrastructure is in place right 
now, or at least for VTS. You could require transponders right 
now, for Congress to appropriate the funds to acquire 100 
transponders right now, and we would supply the logistics 
requirements. We would put them on the ship, take them off the 
ship, charge their batteries.
    Senator Breaux. You have portable transponders?
    Captain Grubbs. Portable transponders. That would push this 
state-of-the-market technology further faster than it is going 
right now. With transponders, at any one time we could have 
maybe 300 ships in port at one time. Of those, ``X'' number are 
HIV vessels. If we get together with the local shipping people 
and we dedicate our resources, the pilot resources and the 
Coast Guard's, to be able to put that on there, now we have got 
the international standard. Houston, they are behind us. There 
are no VTS's in most of those places.
    What they are going to find out is because of what we have 
done here in New Orleans, they could put a VTS base, AIS 
together in even a small port for a fraction of what it would 
cost in the past. Just transponders on one ship, whether it is 
the ship-based model or a portable model, a small 
infrastructure, even somebody's office here in New Orleans. We 
have got the VTS in place. Let us get those transponders, and 
we can put this technology in faster. Because there is a few 
things that we have to do with AIS, but if we can get those 100 
transponders and if we can get the resources of the Coast 
Guard--said we. I think that is really what the department 
should have done. It really is ``we.'' The Coast Guard can be 
really good at that. If we can get the resources now and add a 
few radar sites and add those transponders, this VTS is fully 
operational, for safety, for anti-terrorism and for improving 
the pilots' situation.
    Mr. Vitter. Thank you. That is all I have.
    Senator Breaux. I take it, Mr. Hayden, on behalf of the 
Steamship Association, that you all do support the concept, 
because you have talked about the transponders being on the 
vessels?
    Mr. Hayden. Yes, sir, we do, but our main concern is that 
everyone in the VTS have the same requirements on them. I know 
that is difficult for you, but if we have small vessels in the 
area, private fishing vessels, whoever, they need to be part of 
the system.
    Senator Breaux. It is interesting on the requirements on 
airplanes, I mean, a lot of private small planes, they do not 
have to have a transponder, as I understand the latest 
regulation, unless they are calling on a major airport where 
they have a lot of traffic. I mean if they are landing in New 
Orleans and they do not happen to have a transponder, they are 
not going to let them come in. If they are landing maybe at a 
smaller airfield and are only going to fly in and out to 
somewhere up in the country area of the state, they do not have 
to have that transponder. But if they are going to come to a 
major airport they have got to have one, or you cannot let them 
land. When you come to the Port of New Orleans or come into 
this area, a transponder would be required because we want to 
know where you are.
    Mr. Hayden. But the other thing is, Senator, that you have 
to have enough Coast Guard people and enough Coast Guard 
equipment available so that if we have somebody that does not 
have a transponder, you run out there and see what he is doing.
    Senator Breaux. Well, this has been very helpful. In 
addition to the two panels, we have a statement from John 
Hyatt, who is Chair of the Port Liaison/Political Action 
Committee of the International Freight Forwarders and Custom 
Brokers Association, which was made part of our record.
    [The information referred to follows:]

            Prepared Statement of John T. Hyatt, Chairman, 
                Port Liaison/Political Action Committee

    The International Freight Forwarders and Customs Brokers 
Association of New Orleans (IFFCBANO,) is a non-profit association of 
FMC-licensed international freight forwarders and U.S. Treasury-
licensed customs brokers. In existence since 1913, it comprises 50 
firms. The customer base of member firms includes thousands of 
importers and exporters in North America. Member firms handle import 
and export cargoes moving through the Customs Service Port of New 
Orleans encompassing the states of Louisiana, Mississippi, Alabama, 
Arkansas and Tennessee.
    In examining the provisions of S. 1214 (Port and Maritime Security 
Act of 2001,) we agree with the need for more security at United States 
seaports. At the same time we cannot allow security concerns to 
negatively impact the flow of goods in international trade, a very 
important part of the economy in Southeast Louisiana. We note that 
several House drafts of this legislation called for increased 
examinations by U.S. Customs from its current 2 percent-under managed 
``risk assessment,'' to 10 percent and even 100 percent.
    The amount of congestion at ports as a result of such moves would 
spell the end of international trade as we know it. Additionally, 
suggestions that the ``in bond'' program be cancelled with all cargo 
clearing at the first port of discharge would wreck havoc on many 
businesses. A substantial amount of the cargo received and cleared at 
New Orleans arrives from West Coast ports in bond via daily unit 
trains: Union Pacific, Burlington Northern-Santa Fe or Kansas City 
Southern railroads. To a lesser extant cargoes originating from 
European points and discharging at ports east of the Mississippi arrive 
via the CSX and the Norfolk Southern Railways.
    There certainly are less intrusive ways in which to insure security 
at U.S. seaports. These could include recognized exporters who will 
undertake to adhere to certain security requirements when loading 
containers for shipment to the United States.
    Additionally, technology could greatly assist in tracking a 
shipment to insure it has not been tampered with during the 
transportation cycle via transponders (tags,) magnetic/electric based 
RFID (radio frequency identification) technologies or EAS (Electronic 
Article Surveillance) technologies. Mass-produced, the costs for such 
security enhancements would be minimal, at the same time ensuring the 
smooth flow of trade.
    We understand suggestions have been made that as a trade off to 
keeping the in bond program intact that Customs would have to receive 
prior to discharge of cargo at any U.S. seaport a minimum of four (4) 
data elements relating to each shipment: consignor, consignee, 
description and first 6 digits of HTS#. This seems a reasonable 
compromise that would satisfy security at the same time fostering trade 
facilitation.
    Finally, our Association views the adequate staffing of U.S. 
Customs offices in this area as crucial to the new security 
requirements, further economic development and attraction of more trade 
through the region. With plans in progress for a state-of-the-art 
container facility in the Napoleon Avenue area as a prelude to the 
future Millennium Port, any further reduction of Customs personnel in 
this area can only have negative impact. As facts to consider, at 
current staffing levels, U.S. Customs has 25 percent fewer inspectors 
than in 1999, consisting of 30 inspectors, 6 supervisors and 4 canines. 
On the trade side there are 33 percent fewer import specialists 
numbering 16, with 3 supervisors. Within the next 5 years a large 
number of inspectors are scheduled for retirement and a number of very 
senior import specialists are also reaching that point. Currently, with 
the increased security requirements, about 75 percent of all inspectors 
are working on weekends, a definite impact on overall morale. The Port 
Director, has at times, been obligated to shuffle duties from the 
import specialist to the inspection side. Some key points to bear in 
mind about the Gulf CMC:

  <bullet> Although the number of entries processed in New Orleans 
        during FY 2000 was 55,000, as a Service Port, New Orleans 
        handles 17 other smaller ports, including the massive Federal 
        Express hub in Memphis.

  <bullet> Import Specialists process entries filed throughout these 17 
        ports, over 1.2 million entries last year, up 6.55 percent from 
        FY 1999.

  <bullet> New cruise ships to New Orleans beginning in February 2002 
        will greatly increase the number of passengers processed. This 
        year 214,000 air and sea passengers were processed.

  <bullet> Next year for sea alone, Customs will process approximately 
        300,000. Factoring in air passengers and seasonal charter 
        flights and the total should approach close to 425,000.

  <bullet> This new activity acts as a further drain on limited 
        resources.

  <bullet> Ten percent of inspectors are at any one time away on 
        temporary assignment or training.

    The Louisiana Coast must be considered a ``border'' as well as the 
land crossings. In our case, this border is much more ``porous,'' 
requiring additional surveillance. We should be beefing up the 
inspection services of U.S. Customs and at the same time addressing the 
crucial trade element. Adequately addressing staffing would be the 
allocation of 15 additional personnel for the Inspection division and 
15 for the Import Specialist division.
    Although it will never be ``business as usual,'' in light of recent 
events, we must not allow the terrorists to win by implementing 
procedures in the name of security that would result in economic injury 
especially to the vital international trade/transportation sector here 
in the U.S. Gulf.

    Senator Breaux. I will just conclude the hearing and thank 
Congressman Vitter for his participating and for help in the 
House on this major legislation. I want to thank everybody who 
has been connected to our visit, which for me, obviously, is 
coming back home for the trip. I thank all of the people who 
have helped us in being welcomed, including all of the staff 
behind us, who are professionals who know what they are doing. 
We will be taking this information that we gained back to 
Washington.
    I think that what we have seen here in New Orleans, 
particularly, this morning, was very valuable to me, to see the 
VTS systems and to go with the Coast Guard and pilots and the 
boarding arrangements as we got out there. It has been very 
helpful to see how it actually works. I think that it has given 
me a greater degree of a sense of security that we can feel 
about the Port of New Orleans. There is still a lot of work 
ahead, in all ports around the country. And hopefully, with the 
Federal Government coordinating, we can provide the necessary 
means to accomplish the goal of having as close to a 100 
percent secured port as we possibly can.
    With that, I will conclude the hearing of the Committee on 
Commerce.
    [Whereupon, the hearing was adjourned.]


</pre></body></html>
